<html>
<title> - THE SCIENCE OF PREVENTION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                       THE SCIENCE OF PREVENTION

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON PREVENTION OF
                     NUCLEAR AND BIOLOGICAL ATTACK

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2006

                               __________

                           Serial No. 109-103

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                                     
                    U.S. GOVERNMENT PRINTING OFFICE
35-625                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012007

                     Committee on Homeland Security



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                     John Linder, Georgia, Chairman

Don Young, Alaska                    James R. Langevin, Rhode Island
Christopher Shays, Connecticut       EdwarD J. Markey, Massachusetts
Daniel E. Lungren, California        Norman D. Dicks, Washington
Jim Gibbons, Nevada                  Jane Harman, California
Rob Simmons, Connecticut             Eleanor Holmes Norton, District of 
Bobby Jindal, Louisiana              Columbia
Charlie Dent, Pennsylvania           Donna M. Christensen, U.S. Virgin 
Peter T. King, New York (Ex          Islands
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Linder, a Representative in Congress From the 
  State of Georgia, and Chairman, Subcommittee on Prevention of 
  Nuclear and Biological Attack..................................     1
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island, and Ranking Member, 
  Subcommittee on Prevention of Nuclear and Biological Attack....    27
The Honorable Donna Christensen, A Representative in Congress 
  From the U.S. Virgin Islands...................................    31
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washinton.........................................    32
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada................................................    29

                               WITNESSES

The Honorable Jay Cohen, Under Secretary for Science and 
  Technology, Department of Homeland Security:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Dr. John Marburger, Director, Office of Science and Technology 
  Policy, Executive Office of the President:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
Mr. Vayl Oxford, Director, Domestic Nuclear Detection Office, 
  Department of Homeland Security:
  Oral Statement.................................................    19
  Prepared Statement.............................................    20

                                Panel II

Dr. Ronald Atlas, Chair, Committee on Biodefense, Public and 
  Scientific Affairs Board, American Society of Microbiology:
  Oral Statement.................................................    40
  Prepared Statement.............................................    42
Dr. William Happer, Cyrus Fogg Brackett Professor of Physics, 
  Princeton University:
  Oral Statement.................................................    35
  Prepared Statement.............................................    36


                       THE SCIENCE OF PREVENTION

                              ----------                              


                      Thursday, September 14, 2006

                     U.S. House of Representatives,
                    Committee on Homeland Security,
                      Subcommittee on Prevention of Nuclear
                                     and Biological Attack,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 1311, Longworth House Office Building, Hon. John Linder 
[chairman of the subcommittee] presiding.
    Present: Representatives Linder, Gibbons, Dent, Langevin, 
Dicks, and Christensen.
    Mr. Linder. The Committee on Homeland Security, 
Subcommittee on Prevention of Nuclear and Biological Attacks, 
will come to order. The subcommittee is meeting today to 
discuss bolstering the science around preventing nuclear and 
biological attack. I want to welcome and thank the witnesses 
for testifying before this committee today and on this 
important topic. We are 5 years removed from 9/11 and nearly 4 
years since Congress authorized the creation of the Homeland 
Security. Entrusted to this massive new department was the job 
of leveraging the considerable scientific and technology 
resources of the United States to prevent the unthinkable, the 
terrorist attack using a weapon of mass destruction.
    The horrors of the nuclear or biological attack require the 
need for robust science and technology solutions and many of 
the changes within DHS have been promising. Creation of the 
domestic nuclear detection office, for example, with its focus 
on the transformational research and development in its 
leadership in creating new detection technologies has been 
encouraging. Necessary changes made at DNDO exemplify the 
importance of pushing the envelope in furthering the goals of 
science and technology.
    Achieving successful solutions require a consistent and 
clear strategic plan to set research priorities while allowing 
outside-the-box breakthroughs.
    The question before us today is in the nearly 4 years after 
the creation of DHS and the science and technology directorate, 
what has been accomplished? It continues to be apparent to me 
that the focus of the S&T director on minor improvements to 
existing technology rather than developing new technologies to 
ensure a better solution, whereas innovation as government 
funding further the science of prevention. Regrettably, I feel 
with few exceptions that the answer is no. The scientific 
community, which is so eager to help make the Nation safer, has 
lost confidence in the science of technology directorate. We 
have heard that the S&T directorate has been plagued with bad 
morale, poor and biased management, unjustified funding 
decisions and lack of peer review and general failure to 
effectively engage the scientific community. As the Senate 
Appropriations Committee recently stated, a seemingly 
rudderless ship exists within the leadership within the S&T. 
These assertions are alarming and entirely unacceptable. Unless 
I am encouraged by the Under Secretary Cohen to head the S&T 
directorate, as he now recognizes, he has a tough shift ahead 
in turning this ship ahead. From developing better biological 
agent detection capabilities that want to be attacking our 
Nation's population infrastructure and agriculture to a better 
understanding of bioagents themselves and the consequences, we 
must push for a better science and technology options.
    We have enormous biotech expertise in this country that 
exists in our universities, the national labs and in industry. 
Failing to engage national, and in some cases, international 
experts will guarantee failure in overarching our Homeland 
Security mission. I look forward to continuing to work with DHS 
to ensure success in our efforts. I hope that the initial 
success at DNDO in developing much improved next generation 
technologies and its focus on transportation R&D will serve as 
a model for R&D.
    I now recognize my friend from Rhode Island, Mr. Langevin, 
for the purpose of making an opening statement.
    Mr. Langevin. Thank you, Mr. Chairman. I want to welcome 
our panel here today. It is great to have you before us. And I 
certainly appreciate the opportunity to have a hearing on this 
topic, the science of prevention.
    In pursuit of the Homeland Security mission, science and 
technology should enable the operational units of Department of 
Homeland Security as well as the hundreds of thousands of first 
responders and private sector critical infrastructure to better 
protect themselves and the public. We must assure that 
technology development is done with this mission in mind. 
Ultimately mission success is the only metric that has any 
meaning.
    An interesting technology that does not enhance our ability 
to foil terrorists' intentions and protect our citizens should 
be viewed as a failure. One technology that I am convinced must 
be aggressively developed and deployed to accomplish both of 
these goals is radiation protomonitors and other non-intrusive 
imaging equipment. As this committee has heard, the likelihood 
of a terrorist successfully constructing a nuclear weapon is 
much lower than conventional explosives dirty bombs or chemical 
or biological weapons. However, the devastation of such an 
attack will be so great that we must try to detect and 
intercept any special nuclear material, such as highly enriched 
germanium or weapons-grade plutonium from entering our country.
    Now I am pleased that the director, Vayl Oxford, is here 
today from the Domestic Nuclear Detection Office, DNDO. I am 
very interested to hear about the development and deployment 
progress of the next generation advanced spectroscopic portal 
systems as well as advances in non-interest technologies to 
detect these materials.
    And I must say, of all of the departments at DHS, DNDO has 
brought great credit to that department, and we appreciate that 
director's leadership there. The other non-intrusive 
technologies could be used to detect explosives, especially 
liquid explosives whose use came to the forefront only a few 
weeks ago when the London police intercepted an alleged plot to 
detonate liquid explosive bombs on planes bound for the United 
States.
    Next, I know that Under Secretary Cohen, who is confirmed 
for his new position last month, has made this a top priority, 
and I trust that we will get an update on your progress and 
Admiral Cohen, just on a personal note, I have known you for 
several years now in my other role as a member of the House 
Armed Services Committee. You have a stellar reputation as 
director of Office of Naval research. And I am glad that you 
are back on the job and I note the country is safer already.
    So Admiral Cohen, you have many challenges facing you 
besides liquid explosives, however. The S&T directorate has 
been plagued by personnel performance, accounting and even 
ethics problems. Because of these problems, it has not been 
accomplishing what should be its core mission acting as a 
forcemultiplier to ensure success in defeating terrorists and 
protecting our citizens.
    Now the Office of Science and Technology Policy is also 
important for us to hear from today. You represent the guidance 
coming from the White House to the S&T community of the 
executive branch agencies. Now I am concerned that DHS, S&T 
division has not completely made it on to your radar screen and 
has failed to win your confidence.
    The Department of Homeland Security needs the support of 
the White House if it is going to succeed and that support has 
been pretty spotty to date. To most of us, the science and 
technology efforts within the Department have been somewhat of 
a black box and hope that the hearing today shines some light 
inside. So gentlemen, I want to thank you for being here and 
Mr. Chairman, thank you very much. I yield back.
    Mr. Linder. I thank you. Our witnesses today are Dr. John 
Marburger, the Director of Office and Science Technology Policy 
and the Executive Office of the President. That is to say on 
this first panel. The Honorable Jay Cohen, Under Secretary for 
Science and Technology for the Department of Security, and Mr. 
Vayl Oxford, who has testified many times here, director of the 
Domestic Nuclear Detection Office Homeland Security.
    It is a policy here to try to keep your prepared remarks to 
5 minutes. Your entire written statement will be part of the 
record. And Secretary Cohen, it will be nice if we can see 
yours for 30 minutes before the meeting starts in the future.
    Dr. Marburger.

   STATEMENT OF JOHN MARBURGER, DIRECTOR, OFFICE AND SCIENCE 
    TECHNOLOGY POLICY, AND EXECUTIVE OFFICE OF THE PRESIDENT

    Mr. Marburger. Yes, sir. Good morning, Mr. Chairman and 
members of the subcommittee. I am pleased to have this 
opportunity to make brief oral remarks on the role of the 
administration and my office in support of the science behind 
prevention efforts and the research and development efforts 
underway to develop countermeasures to nuclear and biological 
attacks, and I am glad that my longer version of my testimony 
will be included in the record of today's hearing.
    I am also delighted to testify with my colleagues, Under 
Secretary Cohen and Director Oxford, and I assure you that our 
administration has high expectations of them.
    In December 2002, President Bush released the ``National 
Strategy to Combat Weapons of Mass Destruction,'' the report 
that lays the groundwork for countering the very serious threat 
from nuclear and biological weapons. The technical part of this 
strategy was informed by an important study released earlier 
that year by the National Academy of Sciences in their report 
called ``Making the Nation Safer, the Role of Science and 
Technology in Countering Terrorism,'' and that report continues 
to be an important source of guidance for these efforts.
    Following the national strategy, three homeland security 
presidential directives, HSPDs, have been issued that bear on 
countering biological and nuclear weapons. HSPD 9, released on 
January 30, 2004, called ``Defense of the United States 
Agriculture and Food,'' highlights many roles for research and 
development including a role for my office in the acceleration 
and expansion of countermeasure development. HSPD 10, released 
on June 12th, 2004 called ``Biodefense For the 21st Century'' 
laid out specific agency responsibilities under four titles: 
Threat Awareness, Prevention and Protection, Surveillance and 
Detection, and Response and Recovery. The longer descriptions 
are in my written version of my testimony.
    HSPD 14, released April 15th last year established the 
domestic nuclear detection office DNDO within the Office of 
Homeland Security, and, of course, the director of DNDO, Mr. 
Oxford, is present today and can describe in great detail the 
role and activities of that office.
    Research supporting the aims of these directives, 
especially relating to biological and nuclear agents, requires 
the expertise and capabilities of multiple departments and 
agencies, and not just DHS and S&T. The key actors are DHS 
itself, Health and Human Service, Department of Energy, and the 
U.S. Department of Agriculture. Basic research at the National 
Science Foundation is also significant for this effort, and in 
my written testimony, I describe how my office assists in the 
policy guidance to and coordination of this multi-agency work. 
I don't want to go into that bureaucratic detail here but I 
will be glad to answer questions about it.
    Most of the $11.5 billion in Homeland Security R&D spending 
that is $8.2 billion of it, during the past 3 years has been 
directed toward weapons of mass destruction threats. Of the 
$4.84 billion requested for R&D for fiscal year 2007, $3.76 
billion is targeted for these threats, a substantial portion of 
it. The R&D priority guidance issued each year jointly by my 
office and the Office of Management and Budget includes a 
section on Homeland Security R&D that encourages agencies to 
emphasize research in seven specific areas, of which five are 
relevant to the work of this subcommittee. And for each of 
these five, I have provided background and a little vision 
statement and expectations for future work in my written 
testimony.
    To keep my oral remarks brief, I will conclude by just 
stating the descriptive titles of these five areas so you can 
have a quick overview of the scope of the work. The first one 
is detection, decontamination and remediation of biological 
agents; second, the modeling of infectious disease outbreaks; 
the third, the development of medical countermeasures for WMD 
agents, generally not only biological and nuclear; the fourth 
is protection of food and agriculture; and finally, the 
detection of nuclear materials. These are priority areas that 
we have asked all agencies to participate and perform research 
on.
    So in summary, defending our Nation against attacks with 
weapons of mass destruction has been and will continue to be a 
top priority of this administration.
    While science and technology have contributed a great deal 
to our defenses against nuclear and biological agents, there is 
still very much more work to be done. And with the continued 
support of Congress, and the excellent leadership of the 
gentlemen to my left, we will continue to make significant 
improvements in our capabilities to defend ourselves against 
the threat of biological and nuclear weapons.
    Thank you for the opportunity.
    Mr. Linder. Thank you, Dr. Marburger.
    [The statement of Mr. Marburger follows:]

             Prepared Statement of John H. Marbgurger, III

Introduction
    Good morning, Mr. Chairman and Members of the Subcommittee. It is a 
pleasure to be here today before the Subcommittee on Prevention of 
Nuclear and Biological Attack. Your hearing focuses on an issue of 
critical importance--the science behind prevention efforts, and the 
research and development efforts underway to develop countermeasures to 
nuclear and biological attacks. Making full use of the nation's 
collective S&T expertise is critical for long-term success in this 
endeavor, and in the overall war on terrorism.
    The possibility of an attack with nuclear or biological weapons has 
long been seen by this Administration as one of the greatest threats to 
U.S. national security. Unlike other weapons, nuclear and biological 
weapons have the potential to inflict catastrophic damage in terms of 
both the number of casualties and the destruction of public 
infrastructure. The President released The National Strategy to Combat 
Weapons of Mass Destruction in December of 2002 to lay the groundwork 
necessary to counter the threat from nuclear and biological weapons. 
This strategy called for a coordinated national effort to prevent, 
prepare, and respond to this threat, and highlights the critical 
importance of science and technology in this endeavor.
    The information and recommendations contained in the 2002 National 
Academy of Sciences (NAS) report ``Making the Nation Safer: The Role of 
Science and Technology (S&T) in Countering Terrorism'' were taken into 
consideration in the development of the national S&T response to this 
threat. This report highlighted a number of areas where science and 
technology could be applied to reduce the threat from biological and 
nuclear weapons, including:
        <bullet> improved special nuclear material detection 
        capabilities;
        <bullet> improved communication between the intelligence S&T 
        and public health communities;
        <bullet> development of early warning and detection 
        technologies for biological agents;
        <bullet> improved models to better understand the potential 
        impact of biological weapons;
        <bullet> increased research, development and production of new 
        medical countermeasures;
        <bullet> improved personnel protective equipment; the 
        development of methodologies;
        <bullet> guidelines for the decontamination of radiological 
        material or biological agents.
    Finally, there have been a number of Homeland Security Presidential 
Directives (HSPDs) issued over the past four years that have particular 
relevance to countering the threat from biological and nuclear weapons. 
I would like to specifically address three of them, as they have played 
a key role in shaping our nuclear and biodefense R&D efforts: HSPD-9, 
NSPD-33/HSPD-10 and HSPD-14.
    Signed on January 30th, 2004, HSPD-9 Defense of United States 
Agriculture and Food establishes a national policy to defend the 
agriculture and food system against terrorist attacks, major disasters, 
and other emergencies. This directive lays out the steps necessary to 
prepare our nation for such events and highlights many roles for 
research and development, including a role for my office in the 
acceleration and expansion of countermeasure development.
    Released on the 28th of April, 2004, NSPD-33/HSPD-10. Biodefense 
for the 21st Century, defines the nation's biodefense strategy. This 
directive was the culmination of a comprehensive end-to-end assessment 
led by the Homeland Security Council (HSC) of biodefense needs and 
capabilities across all agencies, and laid out specific agency 
responsibilities to support four main pillars:

        <bullet> Threat awareness,
                <bullet> Improve the Intelligence Community's ability 
                to collect, analyze, and disseminate intelligence on 
                biological weapons and their potential users.
                <bullet> Anticipate and prepare for novel or 
                genetically engineered biological threat agents.

        <bullet> Prevention and protection,
                <bullet> Improve our ability to detect, interdict and 
                seize weapons technologies and materials to disrupt the 
                proliferation trade, and to pursue proliferators 
                through strengthened law enforcement cooperation, 
                including Interpol.
                <bullet> Enhance diplomacy, arms control, and bilateral 
                and multilateral efforts that impede adversaries who 
                seek biological weapons.
                <bullet> Assess the vulnerabilities of our critical 
                infrastructure to focus protective efforts.

        <bullet> Surveillance and detection, and
                <bullet> Develop and integrated early warning system to 
                rapidly recognize and characterize any biological 
                attack, permitting an early and robust response to 
                prevent illness and deaths, as well as economic and 
                social disruption.
                <bullet> Enhance our ability to attribute biological 
                weapons attacks, thereby strengthening deterrence of 
                attack.

        <bullet> Response and recovery
                <bullet> Create and refine comprehensive plans to 
                mitigate the lethal, medical, psychological and 
                economic consequences of an attack.
                <bullet> Provide the newest and most effective medical 
                countermeasures such as vaccines, drugs and diagnostics 
                to prevent illness and save lives.
                <bullet> Coordinate federal assets to assist state and 
                local public health and medical response to mass 
                casualty events caused by WMD.
                <bullet> Develop risk communications strategies, plans 
                and products to reach all segments of domestic and 
                international communities.
                <bullet> Improve capabilities to remediate and 
                decontaminate the environment following a biological 
                attack.
    HSPD-14, released on April 15th of 2005, established the Domestic 
Nuclear Detection Office (DNDO) within the Department of Homeland 
Security. The DNDO was established to provide the U.S. with a 
multilayered and well coordinated nuclear detection architecture, and 
to serve as the lead federal agency for the research and development 
pertaining to nuclear and radiological detection capabilities. As Mr. 
Oxford is present today I will let him describe in detail the essential 
role of, and the significant advances made by, the DNDO in securing our 
nation from nuclear terrorism.
    These reports and directives form the foundation of the S&T 
community's efforts to develop and deploy technologies in support of 
the prevention of nuclear and biological attacks. Rather than list the 
accomplishments of the last four years, I would like to take this 
opportunity to look forward by defining our current homeland security-
related S&T priorities, and the role S&T must continue to play as part 
of a comprehensive strategy to combat terrorism and WMD.

    The Role of OSTP in the Coordination of S&T related to Homeland 
Security
    Let me first take a brief moment to provide an overview of The 
Office of Science and Technology Policy, and its role in Homeland 
Security S&T.
    The Office of Science and Technology Policy, which I lead, has the 
primary responsibility within the Executive Office of the President to 
prioritize and recommend federal R&D activities, and to coordinate 
those activities at the interagency level.
    S&T related to homeland security is particularly unique in its need 
for coordination as it impacts mission areas, and requires the diverse 
skill sets and expertise, of multiple departments and agencies. In 
2006, nine different departments and agencies received funding for 
homeland security-related research and development projects.
    The primary mechanism for coordination of interagency science and 
technology issues is the National Science and Technology Council 
(NSTC), which was established by Executive Order 12881. This Cabinet-
level Council, chaired by the President, is the principal means for 
Coordinating science and technology issues across the executive branch. 
One of the NSTC's four standing committees, the Committee on Homeland 
and National Security is focused on identifying S&T priorities and 
facilitating the planning among federal departments and agencies 
involved in homeland and national security S&T. The work of the 
Committee on Homeland and National Security is closely coordinated with 
the efforts of the Homeland Security Council and the National Security 
Council.

    R&D Priorities to Counter the Threat of WMD as Stated in the OSTP/
OMB Budget Priorities Memo for FY 2008.
    From 2004 to 2006, homeland security-related R&D funding has 
totaled $11.5 billion dollars with an additional $4.8 billion requested 
for FY2007. The majority of this funding is directed at enhancing our 
capabilities to prevent, detect, protect from, or respond to, an attack 
with WMD. Of the $11.5 billion dollars of homeland security-related R&D 
funding from 2004 to 2006, $8.2 billion dollars was devoted towards 
countering the threat from WMD. Of the $4.84 billion requested for 
homeland security-related R&D funding in the President's FY2007 budget, 
$3.76 billion is targeted at countering the threat from WMD.
    The work being done to counter the threat from WMD, especially the 
threat from biological and nuclear agents, requires the expertise and 
capabilities of multiple Departments and Agencies and is not solely the 
realm of DHS S&T. The Departments and agencies most heavily involved in 
this research are DHS, DoD, HHS, DoE, and USDA. Basic research at NSF 
also contributes greatly to this effort.
    On June 23rd of this year, OSTP released, in coordination with the 
Office of Management and Budget, a memorandum for the heads of 
executive departments and agencies on Administration Research and 
Development (R&D) Budget Priorities for FY 2008. This memo highlights 
the Administration's R&D priorities and emphasizes improving management 
and performance to maintain excellence and leadership in science and 
technology. It also provides general guidance for setting priorities 
among R&D programs, identifies interagency R&D efforts that should 
receive special focus in agency budget requests, and reiterates the R&D 
Investment Criteria that agencies should use to improve investment 
decisions for and management of their R&D programs. These updated R&D 
budget priorities reflect an extensive, continuous process of 
consultation with the President's Council of Advisors on Science and 
Technology (PCAST) and collaboration within the interagency National 
Science and Technology Council (NSTC). For the past four years, this 
memo has included a section on priorities in Homeland Security related 
R&D and I would like to talk about these priorities today.
    Four years have passed since the publication of the President's 
National Strategy for Homeland Security which identified the Nation's 
S&T enterprise as a key asset in our efforts to secure the homeland. 
All parts of that S&T enterprise, both public and private, have 
answered the call for the development of ``new technologies for 
analysis, information sharing, detection of attacks, and countering 
chemical, biological, radiological, and nuclear weapons.'' Despite the 
significant achievements over the past four years, many challenges 
remain to mitigate vulnerabilities. Every year, we seek to highlight 
these challenges in the priorities memo, not to exclude ongoing 
efforts, but to focus new initiatives and funding in the areas where 
they are most needed.
    For FY08, we encourage agencies to place increased emphasis on 
Homeland Security related R&D efforts that support:
                <bullet> quick and cost-effective sampling and 
                decontamination methodologies and tools for remediation 
                of biological and chemical incidents;
                <bullet> the development of integrated predictive 
                modeling capability for emerging and/or intentionally 
                released infectious diseases of plants, animals and 
                humans, as well as for chemical, radiological or 
                nuclear incidents, and the collection of data to 
                support these models;
                <bullet> the exploitation of recent advances in 
                biotechnology to develop novel detection systems and 
                broad spectrum treatments to counter the threat of 
                engineered biological weapons;
                <bullet> the development of novel countermeasures 
                against the natural or intentional introduction of 
                agricultural threats, including R&D on new methods for 
                detection, prevention, and characterization of high-
                consequence agents in the food and water supply;
                <bullet> transformational capabilities for stand-off 
                detection of special nuclear material and conventional 
                explosives;
                <bullet> biometric recognition of individuals for 
                border security, homeland security, and law enforcement 
                purposes in a rapid, interoperable, and privacy-
                protective manner; and
                <bullet> recognizing and expediting safe cargo entering 
                the country legally, while securing the borders against 
                other entries.
    I would like to take this opportunity to provide you with a brief 
discussion of our vision for each of the five areas contained in this 
memo relevant to the mission of this subcommittee.

Decontamination of Biological Agents
    The small scale indoor release of anthrax in October 2001 
illustrated the magnitude of the threat to public health and 
infrastructure that is posed by biological weapons. The attacks claimed 
five victims and contaminated multiple postal facilities, the American 
Media, Inc., building in Boca Raton, Florida, and the Hart Senate 
Office building. The cleanup of these buildings cost hundreds of 
millions of dollars and took years to complete. The Brentwood Mail 
Facility alone cost $130 million and took over 2 years to finish. These 
small attacks clearly demonstrated the gaps that exist in technologies, 
methods, and procedures used for the decontamination of biological 
agents. A deliberate attack with anthrax over a major metropolitan area 
has the potential to displace thousands of people and close hundreds of 
businesses for years. As an example of the cost associated with losing 
even one piece of critical infrastructure, the San Francisco Airport 
Authority estimated a daily economic effect of $85 million lost for 
each day spent undergoing decontamination and restoration. Investment 
in the development of new technologies and methodologies for the wide 
area decontamination of biological and chemical agents is needed to 
offset the cost of restoration after a potential terrorist attack. 
Furthermore, many of the technologies that need to be developed will 
also improve our current capabilities to clean up the contamination and 
environmental damage that are associated with natural disasters
    Developing the technologies necessary to address the deficiencies 
in our current biological agent decontamination capabilities will 
require a mixture of both long term basic research, and short term 
applied and advanced development research. A focused and directed 
investment in the R&D of novel decontamination technologies for 
biological agents over the next 10 years will yield the tools needed to 
improve the efficiency and reduce the time and cost associated with the 
decontamination operations, regardless of future target cleanup levels. 
Short term applied research on novel decontamination technologies over 
the course of the next five years could have an immediate positive 
impact on our decontamination capabilities. Examples of near term 
technological solutions include the development of: novel tenting 
materials for rapid site preparation for fumigation, better fumigant 
monitors, improved characterization of surface effects, and development 
and testing of non-destructive decontamination methods. A comprehensive 
decontamination R&D program must also include long-term basic research 
focused on better understanding the characteristics of biological 
agents as they relate to decontamination. The recent NAS report 
entitled "How Clean is Safe?" concluded "there is insufficient 
information to quantify a 'safe' amount of residual biological agent in 
a decontaminated facility." It also pointed out that there are many 
issues that decision makers need to consider when decontaminating a 
facility. Studies that examine environmental persistence, 
susceptibility to various decontaminants, and improved methodologies 
for sampling will be critical for any future efforts to develop 
realistic clean up levels for biological agents.
    The National Science and Technology Council's Subcommittee on 
Decontamination Standards and Technologies was formed in 2005 to 
coordinate the efforts of all Departments and Agencies with 
responsibilities for, or capabilities applicable to the environmental 
decontamination of biological agents. The subcommittee has been working 
to develop risk management-based guidance for biological and chemical 
agent decontamination operations. This work is currently in review and 
should be available in the next few months. The SDST has also been 
working to identify the technology needs and gaps that must be overcome 
in order to support efficient decontamination operations, and to 
coordinate the R&D efforts of multiple agencies (namely DOD, DHS, and 
EPA) to address those gaps.
Modeling
    There are pockets of world-class infectious disease modeling 
expertise within a small number US universities, national laboratories, 
and the federal government; however current efforts are limited and 
insufficient to produce needed national capacity. It presently is a 
``scientific cottage industry'' supported to a limited extent by the 
National Science Foundation, Departments of Health and Human Services, 
Agriculture, Interior, Energy, Defense, and Homeland Security.
    With the current threat of a highly pathogenic avian influenza 
pandemic and other fairly recent outbreaks of emerging or zoonotic 
diseases such as SARS, there has never been a greater need for the U.S. 
to have the capability to model the geospatial and temporal spread of 
infectious diseases to enhance and/or enable threat awareness, 
prevention and protection, surveillance and detection, and to test and 
identify measures for response and recovery as called for by HSPD's 9 
and 10.
    Epidemiological/mathematical/statistical models can be used to 
develop response plans, inform policy decisions, compare and exercise 
effects of control measures under different scenarios, train personnel, 
and educate industrial groups. One highly successful model for 
accomplishing this is the Models of Infectious Disease Study (MIDAS) 
established by the National Institutes of Health (NIH). MIDAS funds 
several world-class groups of investigators using epidemiological and 
mathematical models to address high priority infectious diseases of 
public health. MIDAS has already had a profound impact on the Nation's 
understanding of pandemic influenza, including its transmission, the 
effectiveness of various strategies for mitigating its spread, and the 
required amounts of vaccines and anti-virals. Much of the information 
reported through the MIDAS group has been used to inform policy 
decisions, and in turn surfaced additional questions, the answers 
which, could help inform additional policy questions.
    The Department of Homeland Security is conducting a joint analysis 
between the National Infrastructure Simulation and Analysis Center 
(NISAC) and the Critical Infrastructure Protection Decision Support 
System (CIPDSS) team to investigate possible impacts in two specific 
areas in support of the National Strategy for Pandemic Influenza. The 
first is to analyze the potential impacts of pandemic influenza on U.S. 
infrastructures by evaluating which infrastructure sectors will be most 
impacted by a potential influenza pandemic and how the proposed 
policies for mitigation measures such as social distancing and vaccine 
and antiviral distribution would alter the impacts to infrastructures. 
Issues that will also be evaluated include identifying differential 
impacts (by asset, infrastructure, population and region), including 
specifically healthcare and emergency response impacts and how 
infrastructure impacts will influence the spread and recovery 
processes. The second area of focus will be an evaluation of the 
effects of uncertainties on response effectiveness and economic impacts 
from a pandemic affecting the national workforce and the national 
infrastructure.
    In addition, the Departments of Agriculture, Interior and Homeland 
Security are in the process of building a collaborative effort to model 
the impacts of various countermeasures against foreign animal diseases 
such as Avian Influenza and Foot and Mouth Disease. The next step in 
this process would be to connect the two by bringing together the 
public health and animal health communities to examine the need for the 
coordination of modeling in each of these communities and how this 
might best be accomplished.

Development of Medical Countermeasures
    The development and acquisition of medical countermeasures to 
prevent and/or treat the effects of CBRN agents is a critical component 
of our efforts to prepare for and mitigate the effects of an attack 
with WMD. In fact, the development of medical countermeasures against 
WMD accounts for a significant portion of all S&T funds directed 
against the WMD threat. The key role for development and acquisition of 
effective medical countermeasures against WMD previously has been 
identified in Homeland Security Presidential Directives 4, 9, and 10. 
In addition, supporting legislation, including the Project BioShield 
Act of 2004, which provides nearly $5.6 billion dollars over ten years 
to provide for the acquisition of new medical countermeasures against 
CBRN agents, highlights the importance of an integrated enterprise 
across the Federal government and includes stakeholders from academia 
and industry.
    Significant progress has been made in the development of medical 
countermeasures against biological and nuclear agents over the past 
four years.
        <bullet> The National Institute of Allergies and Infectious 
        Diseases at the National Institute of Health has seen an 
        increase in biodefense and medical countermeasures development 
        funding from $53 million in 2001 to $1.8 billion in fiscal year 
        2006, (with close to $1.9 billion requested for 2007) with 
        comparable funding in FY05, 06, and 07), and has set up an 
        aggressive program of basic research aimed at better 
        characterizing a select group of biological agents thought to 
        have a high probability of being used as potential bioterror 
        agents, as well as implementing programs to better understand 
        the effects of chemical and radiological agents in an effort to 
        develop new countermeasures against these threats. Much of the 
        NIAID medical countermeasure research effort has centered on 
        multiple Centers of Excellence based around cutting edge U.S. 
        medical research centers in an effort to focus the research 
        efforts of the academic community on these important issues. 
        NIAID has also improved the U.S. biodefense infrastructure by 
        funding the construction of 4 new high containment laboratories 
        (BSL-3/4) in order to increase the laboratory facilities 
        necessary for the high volume of research on high priority 
        biothreat agents.
        <bullet> DHS has completed Material Threat Assessments (MTAs) 
        for all of the class A biological agents, as well as nerve 
        agents and radiological threats. These intelligence based 
        assessments play a critical role in the BioShield procurement 
        process by providing HHS with the necessary information on 
        which to build their requirements for medical countermeasures. 
        As of January 2006, DHS has completed a comprehensive threat 
        analysis of likely biothreat agents. This new threat assessment 
        methodology will provide a powerful tool for future 
        prioritization of WMD medical countermeasure R&D and 
        acquisition needs.
        <bullet> The Special Reserve Fund (SRF) of Project BioShield 
        has been utilized to award four contracts for the delivery of 
        countermeasures that address two of the four initial material 
        threats (anthrax and radiation, small pox was addressed before 
        Project BioShield):
                <bullet> $877.5 million for 75 million doses of rPA 
                anthrax vaccine
                <bullet> $362.7 million for 15 million doses of AVA 
                anthrax vaccine
                <bullet> $17.5 million for 4.8 million units of 
                Pediatric KI syrup
                <bullet> $21.9 million for 390,000 doses of Ca-DTPA, 
                and 60,000 doses of Zn-DTPA
                <bullet> $362.6 million for 200,000 doses of botulinum 
                antitoxin
                <bullet> $308.4 million for 30,000 courses of anthrax 
                therapeutics
                <bullet> $165 million for 20,000 treatment courses of 
                anthrax monoclonal antibody
                <bullet> $144 million for 10,000 treatment courses of 
                anthrax immune globulin
        <bullet> Furthermore, additional requests for product have been 
        issued to solicit competition for BioShield contracts to 
        fulfill the need for:
                <bullet> Up to 20 million doses of next generation 
                (MVA) small pox vaccine
                <bullet> Up to 100,000 treatment courses of drugs to 
                counter the effects of neutropenia associated with 
                acute radiation syndrome (ARS).
    The threat from biological weapons is dynamic and evolving. Recent 
advances in the life sciences have made it easier than ever before to 
enhance traditional biological threat agents to avoid our current 
countermeasures, or to engineer completely novel threat agents that we 
would be unable to detect or treat.
    We must continue to support ongoing efforts to develop improved and 
more effective countermeasures against the traditional threat agents 
(anthrax, plague, smallpox, etc.) that present an immediate threat to 
our National Security, and present the best opportunity for medical 
mitigation. Simultaneously however, the Nation must begin to invest in 
technologies that will allow for a rapid and flexible defense against 
enhanced or engineered biological agents. The development of new host 
based diagnostic techniques including: Molecular biomarkers--such as 
messenger ribonucleic acid (mRNA) and proteins--could provide new tools 
to determine an individual's exposure to a number of potential 
pathogens. Additionally recent breakthroughs in the life sciences can 
be exploited to develop new therapeutics and broad spectrum 
countermeasures. For example, emerging technologies like RNA 
interference--coupled with vectors for delivering DNA vaccines and 
advances in DNA synthesis technology could form the basis for a highly 
robust system for therapeutics against a wide range of viral 
infections. While a great deal of basic and applied research will be 
required to make these possible new detection mechanisms and treatments 
a reality, such systems could drastically reduce the time needed to 
respond to future threats.

Protection of Food and Agriculture
    Our agricultural system is vital to the well being of the United 
States and accounts for approximately 12 percent of our Gross Domestic 
Product. It ensures that we can feed our Nation without depending on 
other countries--a significant strategic advantage over many countries 
in the world. Recognizing this importance the President has designated 
the Nation's agriculture and food systems as a critical infrastructure 
and on January 30th, 2004, signed Homeland Security Presidential 
Directive 9 (HSPD-9) which established a national policy to defend the 
agriculture and food system against terrorist attacks, major disasters, 
and other emergencies.
    In response to HSPD-9, which calls for an acceleration and 
expansion of the development of current and new countermeasures against 
the intentional introduction or natural occurrence of catastrophic 
animal, plant, and zoonotic diseases, the Subcommittee on Foreign 
Animal Disease Threats (FADT) of the President's National and Science 
Technology Council, has brought together leading agro-defense experts 
and decision makers from many federal agencies to identify the key 
technological tools needed to protect our agricultural system and the 
supporting research to develop them. The Subcommittee has focused on 
those agricultural threats with the greatest potential economic or 
public health impacts and limited its scope to the research and 
development (R&D) needed to inform policy decisions and/or provide the 
key tools to mitigate the impacts of a natural or intentional 
agricultural outbreak.
    Also in response to HSPD-9, the Department of Homeland Security 
established the National Center for Food Protection and Defense in 
Minnesota and the National Center for Foreign and Zoonotic Disease 
Defense in Texas. Each of these centers is conducting research to 
further protect and defend our nation's food and agricultural system.

Detection of Nuclear Materials
    The prevention of the terrorist use of nuclear weapons against the 
United States remains one of the highest priorities of this 
administration. Central to our ability to defend against nuclear 
terrorism is our ability to detect and interdict illicit special 
nuclear material as early and as far away from U.S. territory as 
possible. The ability to interdict nuclear and radiological material 
(to search, locate, identify and/or track) is dependent on the 
technological capability to detect material with the appropriate 
sensitivity and selectivity, at a distance without false alarms, and to 
carryout this work in operational settings that requires self 
sufficient, efficient, mobile, hardened and integrated systems. The 
technical gaps to achieve such a complete capability require 
evolutionary as well as transformational advancements. It requires 
exploitation of existing technologies and development of new detectors 
to improve detector arrays, reduce false or nuisance alarms, operate at 
lower power, have faster electronics, be environmentally stable, have 
higher efficiency, be available at different sizes/shapes depending on 
the operational setting, have improved selectively and sensitivity and 
greater network capability, and work at greater standoff distances. 
Closing these gaps will require improved active and passive 
interrogation methods, improved radiography, and innovative techniques 
to improve quality of images, detection at high speeds, and the 
development of an open architecture with sensor networks to support 
data fusion and integration. As with nonproliferation, no single 
detection system alone can do the job and development of capability to 
address the interdiction mission in concert with the nonproliferation 
efforts will radically improve our domestic security.
    As mentioned earlier a central figure in ensuring that this 
research is accomplished is the newly formed Domestic Nuclear Defense 
Office within DHS. The President's FY 2007 budget request supports 
aggressive R&D and operational programs for nuclear defense, including 
a requested $535 million in FY 2007 (a 70 percent increase over FY 2006 
funding) for DNDO, which includes funds that will support the kind of 
transformational research that will be necessary to develop the next 
generation of detection systems. However, we also urge the Senate and 
the House to restore full funding to DNDO as it enters into conference 
negotiations on the DHS appropriations bill.
    While the development of advanced nuclear materials detection 
technologies has been called out as a priority in the 2008 budget memo, 
it is important to note that there are additional technical challenges 
associated with a robust and comprehensive defense against a terrorist 
use of a nuclear weapon which mandate investment in research and 
development that runs the gamut from basic science and technology to 
prototype deployment. Beyond detection, the spectrum of R&D is equally 
broad, covering research with the objective of decreasing the 
legitimate demand for highly enriched uranium or plutonium; detecting 
nuclear development and testing programs overseas; securing existing 
stockpiles of weapons and material; attribution; render safe; and 
consequence management. R&D programs across the federal government are 
supporting these various elements of domestic nuclear defense. These 
programs are structured to meet each federal department's highest 
priority objectives engendering unique requirements that ultimately 
drive mission-specific advanced technology development. The R&D efforts 
underlying many of these mission areas have common or synergistic 
elements. These synergies necessitate consideration of how 0best to 
coordinate efforts, identify and fill technical gaps, and promote 
technical advancement ensuring the generation-after-next defensive 
capability. OSTP has been leading an interagency effort under the HSC/
NSC Domestic Nuclear Defense Policy Coordinating Council to ensure that 
all nuclear defense R&D is adequately coordinated and appropriately 
funded to meet each federal department's highest priority 
objectives.ConclusionDefending our nation against attacks with weapons 
of mass destruction, especially nuclear and biological weapons has been 
and will be continue to be a top priority of this administration. We 
have worked diligently over the past four years to develop strategies 
to address these threats. Our strategies for the defense against 
biological and nuclear weapons are based upon sound scientific input, 
and provide a coordinated plan that takes full advantage of the diverse 
and varied scientific capabilities and expertise of the entire federal 
government to ensure that we have the necessary tools to prevent, 
detect, protect against, or respond to attacks with WMD. While science 
and technology have contributed a great deal to our defenses against 
nuclear and biological agents there is still much work to be done. With 
the continued support of Congress for this essential research we will 
continue to make significant improvements in our capabilities to defend 
ourselves against the threats of biological and nuclear weapons.
    Mr. Chairman, and members of the Subcommittee, I thank you for the 
opportunity to testify to today. I look forward to answering any 
questions you may have.

    Mr. Linder. Secretary Cohen.

   STATEMENT HON. JAY COHEN, UNDER SECRETARY FOR SCIENCE AND 
        TECHNOLOGY, THE DEPARTMENT OF HOMELAND SECURITY

    Mr. Cohen. Good afternoon, Chairman Linder, Congressman 
Langevin and the distinguished members of this subcommittee. I 
appreciate very much your invitation to be here today and to 
have an opportunity to testify concerning the significant role 
of science and technology and bringing new solutions to bear to 
the challenges that face both the Nation and, by extension, the 
Department of Homeland Security in making us more secure.
    It was my intent to address some specifics here, but I 
think in light of your opening comments, Mr. Chairman, I would 
first like to apologize that you did not receive my testimony 
well in advance as you require. I will find out why that didn't 
happen, and I can assure you that will not happen again.
    I am also honored to be sitting between Dr. Marburger who 
has been a mentor for me in this area. I am not a scientist. I 
am barely a shade tree engineer, but I have had the privilege 
of working with him for the last 6 years, and I have recently 
met Vayl Oxford and appreciate very much as a nuclear 
submariner his responsibilities using the Naval reactors model 
that the Department of Navy uses of cradle to grave 
responsibilities for nuclear and radiological protection of our 
country.
    Many of you from prior hearings that I have had over the 
last week are aware that in the first 3 weeks on board, I 
reported for duty on the 10th of August, with the support of 
the administration, and especially Secretary Chertoff.
    I have realigned consistent with the 19 pages of 
implementing legislation, which I appreciate so much the vision 
of the Congress and the administration in establishing the 
Department of Homeland Security, the S&T directorate. That has 
been approved a week ago by Secretary Chertoff. It was briefed 
to the Congress last Thursday and we are off to the races 
aligning and manning to that new construct.
    After 9/11, and all of us in the room lived through that, 
had a chance to observe those heinous events, things that were 
unthinkable before 9/11 all of a sudden became not only 
plausible, but potentially probable. And in the evaluation of 
the probability of occurrence and the consequence of occurrence 
in multiplying those two together, you come up with risk. I 
dare say that many of us before 9/11 thought that the 
probability of occurrence of a chemical, biological, nuclear, 
radiological attack on our soil was low to insignificant other 
than naturally occurring animal diseases. But after 9/11, we 
realized, the administration realized and the Congress realized 
that that was not the case. And so from the start there was 
leadership and focus in nuclear, radiological, chemical, and 
biological DNDO has been responsible appropriately for the 
nuclear and radiological. The Department of Homeland Security, 
S&T directorate has been responsible for the chemical and 
biological aspects of that detection, prevention, remediation, 
recovery, et cetera.
    Mr. Chairman, ladies and gentlemen, that represents today 
50 percent of my budget, and as I have realigned in to six 
departments of energetics, chembio, C4ISR, which I know Ms. 
Harman will appreciate, is very military, and Congressman 
Langevin. My people said no, no. Call it command and control. 
You know, sounds less military, but the facts of life are we 
are at war, and my department and my directorate must be 
involved in command, control, computers, communication, 
intelligence surveillance and recognizance. And that is a 
cross-cutting department for me that affects everything else 
that we do, and shame on me if I don't leverage the tens, nay 
hundreds of billions of dollars of investment that has been 
made in other agencies and in Department of Defense.
    And as I have said in previous hearings, and I know Mr. 
Chairman, you have heard this, you may get tired of me 
complimenting the Congress, but I appreciate so much in the 19 
pages of enabling legislation that you had the vision to 
realize we were not going to recreate the NIH. We were not 
going to recreate the national science foundation. But you 
wanted me to leverage those investments and focus them for the 
national defense and Homeland Security mission areas.
    Additionally, we have borders in maritime, a balance of our 
Customs and Border Protection as well as our Coast Guard. So we 
have a seamless border of our land and our seas.
    Human factors which are so important. This is an area that 
I think we will find in the future will be unique to the 
Department of Homeland Security, especially the psychology of 
terrorism, hostile intent and the reaction of our citizens and 
our society to various threats and attacks. And then finally, 
infrastructure and geophysical sciences, to me, transportation 
is merely infrastructure that moves.
    So chembio is half my budget. It is one of my six 
departments. We have had a chance to brief you in classified 
hearings as to the progress that has been made there. Much 
remains to be done. I think during the question and answer 
period, you will see some of the innovative things that have 
occurred. But Mr. Chairman, I believe the committee is right. 
We have not gone far enough. We can go much farther, and I 
think Dr. Marburger will tell you I am not afraid of risk, 
focused risk, innovation, the partnership between industry, 
academia and our national labs makes this country the great 
country that it is and I plan on fully utilizing those tools 
that you have given me to protect our country in the chembio 
area.
    Thank you, sir.
    Mr. Linder. Thank you, Secretary Cohen.
    [The statement of Mr. Cohen follows:]

          Prepared Statement for the Record Hon. Jay M. Cohen

Introduction
    Good afternoon, Chairman Linder, Ranking Member Langevin and 
Members of the Subcommittee. I appreciate the invitation to meet with 
you today to discuss the significant role of science and technology in 
bringing to bear solutions to the challenges the Department of Homeland 
Security (DHS) and the Nation face in making us all more secure. 
Specifically I will address the realignment of the Directorate to 
better meet the mission needs of our customers--the DHS Components, and 
the customers of our customers--the first responders; the work of the 
Homeland Security Research Enterprise including the DOE National Labs; 
and the progress we've made in one of the biggest DHS priorities, 
biological defense.
    President Bush noted the important role of science and technology 
in protecting the Nation in July of 2002 when he discussed the creation 
of the Department of Homeland Security: ``We will harness our science 
and our technology in a way to protect the American people. We will 
consolidate most federally funded homeland security research and 
development, to avoid duplication, and to make sure all the efforts are 
focused.''
    The Science & Technology Directorate (S&T Directorate)'s mission is 
to protect the homeland by providing Federal, State, local, and Tribal 
officials with state-of-the-art technology and resources. To accomplish 
this mission and be successful we have made changes to mature the 
organization. My goal for the Directorate, as envisioned by our 
enabling legislation, is to become a full service organization that is 
customer focused and output oriented. It must also be cost effective, 
efficient, responsive, agile, and flexible.
    It is essential that the Nation invest strategically in research 
and development to detect and prevent a nuclear or biological incident 
and to minimize the consequences should such an event occur. This 
requires the S&T Directorate to focus research on areas that will best 
fill our customer's capability gaps and improve operations. We must set 
our priorities to align with National and Department of Homeland 
Security priorities.

Setting Priorities
    My years at the Office of Naval Research taught me that a research 
and development (R&D) organization must take to heart customers' 
insights, priorities, and goals. Since my arrival at DHS on August 10, 
I have identified a number of strategic changes that are required to 
transform the Directorate into a world class science and technology 
management organization that is adept in mobilizing the resources of 
the Nation's and the world's vast R&D enterprise to address gaps and 
vulnerabilities in homeland security.
    When Secretary Chertoff launched a Second Stage Review of 
Department operations last year, he emphasized the need for the 
Department to focus on risk. ``We cannot protect every single person 
against every single threat at every moment and in every place. We have 
to, with our finite resources and our finite employees, be able to 
focus ourselves on those priorities which most demand our attention. 
And that means we have to focus on risk. And what does that mean? It 
means we look at threat, we look at vulnerability, and we look at 
consequence.'' The S&T Directorate will endeavor to fulfill the threat-
based needs of our customers and focus on enhancing the ability to 
reduce risk throughout the Department.
    To quickly capture and articulate these broad risk based 
priorities, I internally refer to them as the ``4 B's'':
        <bullet> Bombs
        <bullet> Borders
        <bullet> Bugs, and
        <bullet> Business
    S&T will work with our customers to sharpen the focus of our 
research and enhance our customers' capabilities in these core areas to 
better secure our nation.
    The R&D Budget Priorities issued annually by the Office of Science 
and Technology Policy (OSTP) and the Office of Management and Budget 
(OMB) help guide the S&T Directorate's planning efforts. The budget 
priorities for FY 2008, issued in June 2006, acknowledge the far-
reaching response of the nation's science and technology enterprise as 
called for in the President's National Strategy for Homeland Security 
for the development of ``new technologies for analysis, information 
sharing, detection of attacks, and countering chemical, biological, 
radiological and nuclear weapons.''
    The OSTP/OMB budget priorities acknowledge the significant number 
of achievements over the past four years, as well as the many 
challenges to reducing the nation's vulnerabilities to high-consequence 
events that remain. Among the areas cited as being in need of increased 
emphasis, are several in the biodefense arena that S&T with our 
interagency partners is actively addressing. These include:
        <bullet> Quick and cost-effective sampling and decontamination 
        methodologies and tools for remediation of biological and 
        chemical incidents
        <bullet> The development of integrated predictive modeling 
        capability for emerging or intentionally released infectious 
        diseases of plants, animals and humans, as well as for 
        chemical, radiological or nuclear incidents, and the collection 
        of data to support these models
        <bullet> The exploitation of recent advances in biotechnology 
        to develop novel detection systems and broad spectrum 
        treatments to counter the threat of engineered biological 
        weapons
        <bullet> The development of novel countermeasures against the 
        natural or intentional introduction of agricultural threats, 
        including R&D on new methods for detection, prevention and 
        characterization of high-consequence agents in the food and 
        water supply.
    S&T will focus on the customers' risk based priorities and 
capability gaps. In order to effectively implement these research 
priorities, the S&T Directorate is organized to be more accessible by 
the DHS Components to leverage the value added work the men and women 
of S&T are bringing to the fight. Our DHS customers utilize 
technologies and solutions that will make their jobs better, more 
efficient, more cost effective, and safer.

Implementing R&D Priorities
    Toward this end, S&T will utilize customer-led Integrated Products 
Teams (IPT). DHS Management will lend acquisition expertise and 
guidance to this effort. DHS R&D program requirements will be reviewed 
at least annually and IPTs will be tasked with formulating specific 
goals and budgets. These teams will be chaired by the DHS customers who 
need new technology to improve their performance in achieving their 
mission. Test and Evaluation functions will be integral to the IPT 
process to help ensure that the products and capabilities delivered 
meet customer and first responder needs.

Six Disciplines--the S&T Divisions
    The S&T Directorate is now organized in six Divisions along 
disciplines that are aligned with our customers' requirements. Each 
Division has at least one Section Director of Research and a Section 
Director of Transition. The Section Director of Research works with 
S&T's Director of Research and is focused on basic research; and 
coordinates with the National Laboratories and S&T's University 
Programs, including the Centers of Excellence. The Section Directors of 
Transition work with S&T's Director of Transition and focus efforts on 
applications and expediting technology transition.
    The disciplines and examples of programs in each Division are:
        <bullet> Energetics--i.e. Aviation Security; Mass Transit 
        Security; Counter MAN pads
        <bullet> Chemical/Biological--i.e. Chem/Bio Countermeasure R&D; 
        Threat
                Characterization; Agro-Defense; Bio-surveillance, 
                Response & Recovery
        <bullet> C4ISR--i.e. Information management; Intelligence/
        Information Sharing; Situational Awareness (e.g., 
        interoperability and compatibility; security screening; cyber 
        security)
        <bullet> Borders/Maritime--i.e. Land Borders; Maritime/U.S. 
        Coast Guard; Cargo
        <bullet> Human Factors--i.e. Social-Behavioral-Terrorist 
        Intent, Human Incident Response, Biometrics
        <bullet> Infrastructure/Geophysical Science--i.e. Critical 
        Infrastructure Protection; Regional, State and Local 
        Preparedness and Response; Geophysics
    Additionally, the Director of Innovation (Homeland Security 
Advanced Research Projects Agency (HSARPA) works with the leaders of 
each Division and, as specified in the Homeland Security Act of 2002, 
``support(s) basic and applied homeland security research to promote 
revolutionary changes in technologies; advance the development, testing 
and evaluation, and deployment of critical homeland security 
technologies; and accelerate the prototyping and deployment of 
technologies that would address homeland security vulnerabilities.''
    The S&T Directorate will align its investment portfolio to balance 
project risk, cost, impact, and the time required to deliver results. 
Investments span across three technology Transition Readiness Levels: 
Short-term R&D projects of less than three years; mid-term projects of 
three to eight years; and long-term efforts that extend beyond eight 
years. Our investment portfolio must be prioritized across long-term 
research, product transition and leap-ahead capabilities. A healthy 
push and pull between the research and application arms of the 
organization, coupled with tension over mid-term resources, will help 
S&T achieve a balanced investment portfolio.
    To execute these priorities the S&T Directorate has resources 
across public sector, private sector and academia; I refer to this as 
the Homeland Security Research Enterprise. Thanks to the enabling 
legislation, we have the ability to utilize DHS labs, Department of 
Energy's National Labs, Homeland Security Institute and the DHS Centers 
of Excellence. Additionally we utilize other agencies' resources 
including those of Department of Defense (DoD); National Institute of 
Standards and Technology; Health and Human Services; Department of 
Agriculture; Environmental Protection Agency; National Science 
Foundation; DoD Federally Funded Research & Development Centers; 
industry; international partners; and stakeholder associations. This 
allows the Directorate to select the best performer based on 
capabilities.

DHS Use of DOE National Laboratories
    We have a strong working relationship with the DOE National Labs 
and I thank you for enabling the Directorate to utilize these important 
national assets. For more than half a century, the Federal Government 
has invested tens of billions of dollars in creating the Department of 
Energy's (DOE) National Laboratory system. Today these Laboratories 
represent state-of-the-art scientific capabilities that support the 
development of innovative technologies to address evolving national 
needs. For this reason, the Homeland Security Act of 2002 gave DHS 
special access to the National Labs. It created the Office of National 
Laboratories (ONL) within the S&T Directorate and gave it 
responsibility for coordinating and utilizing these unique national 
assets in support of the DHS mission.
    ONL, with the active collaboration of DOE, is working to 
continually improve the utilization of this enormous national resource 
by enabling DHS to harvest the full range of National Laboratory 
science and technology innovations.
    Many homeland security programs that were conducted by the National 
Labs prior to 9/11 were transferred to DHS at its inception and have 
since formed a solid core of technical competence for S&T. With the 
active support of DOE, the S&T Directorate continues to use the 
National Labs, building upon their unique capabilities, vast 
experience, and past performance in specific areas vital to homeland 
security.
    The relevant technical capabilities of all of the National 
Laboratories are used to support S&T and its DHS customers in 
identifying technical goals and the specific science and technology 
innovations needed to satisfy those goals. The ONL coordinates efforts 
to identify and organize multi-laboratory R&D teams that represent the 
most qualified technical experts to ensure the most efficient 
allocation of the National Lab capabilities and resources to help 
achieve the goals of DHS customers.
    Following DOE review and acceptance, the selected multi-lab teams 
will execute the National Lab programs under DOE management and 
supervision.
    ONL coordinates annual reviews of National Laboratory performance 
using teams of DHS customers, S&T Directorate Program Managers and 
independent technical experts. These reviews evaluate R&D performance 
based on three primary criteria: mission and DHS customer relevance; 
technical competency; and management effectiveness. Since many DHS R&D 
programs are of multi-year duration, the above process will be used to 
manage program execution as well as to initiate new programs. ONL will 
also support the DOE in its laboratory strategic planning and annual 
reviews of performance to maintain enduring national capabilities that 
support both the DHS and DOE missions.
    One of the Department's biggest priorities is detecting, preventing 
and responding to a biological attack, or ``Bugs'' in my shorthand. As 
you are aware, the deliberate or accidental release of a biological 
threat agent has the potential for disastrous consequences that include 
mass casualties. The economic impact of biological event could 
significantly disrupt the nation's critical infrastructures and the 
functioning of our society.

Biodefense: The S&T Biological Countermeasures Program
    The DHS S&T Biological Countermeasures program provides the 
understanding, technologies and systems needed to protect against 
possible biological attacks on the nation's population, agriculture or 
infrastructure. The program places its greatest emphasis on those 
biological attacks that have the greatest potential for widespread 
catastrophic damage. These include aerosolized anthrax, smallpox, 
highly virulent agricultural scourges such as foot and mouth disease, 
and contamination of selected food supplies. Where appropriate, the 
program incorporates biodefense as part of an integrated chemical, 
biological, radiological, nuclear and explosive (CBRNE) defense across 
civil and military agencies.
    The program's core requirements derive from the President's 
Biodefense Strategy for the 21st Century Homeland Security Presidential 
Directive (HSPD-10), which provides a comprehensive framework for our 
nation's biodefense, and Defense of the U.S. Agriculture and Food 
(HSPD-9), which establishes a national policy to defend the Nation's 
agriculture and food systems against terrorist attacks, major 
disasters, and other emergencies. Programs are formulated to respond to 
each of the 11 specific taskings in these HSPDs for which DHS S&T has a 
lead or major role. In addition, the composition, priorities, and goals 
of the overall portfolio and of each major program area are reviewed 
and approved or altered annually as part of S&T's formal five-year 
RDT&E planning process.

    Current lead or major roles of S&T's Biological Countermeasures 
program include:
        <bullet> Conducting periodic risk and policy net assessments to 
        guide the overall biodefense program;
        <bullet> Establishing the National Biodefense Analysis and 
        Countermeasures Center (NBACC) to conduct the laboratory 
        experiments needed to close key knowledge gaps in understanding 
        the risks posed by current threats and to develop strategies 
        for defending against future threats;
        <bullet> Working with the Department of Health and Human 
        Services (HHS) to develop countermeasures to biological 
        threats;
        <bullet> Leading the coordination of a national-attack warning 
        system,
        <bullet> Expanding BioWatch, a monitoring program designed to 
        provide cities with the earliest possible warning of an 
        aerosolized attack;
        <bullet> Developing bio-detection systems for critical 
        infrastructures;
        <bullet> Developing detection systems for protecting the food 
        supply;
        <bullet> Establishing the National Bioforensic Analysis Center 
        as the Nation's lead facility for technical analysis of samples 
        from potential biocrimes or acts of bioterrorism to support 
        attribution by the appropriate Federal agencies;
        <bullet> Operating and upgrading the Plum Island Animal Disease 
        Center, the only facility in the U.S. dedicated to studying 
        certain foreign animal diseases such as Foot and Mouth Disease; 
        and
        <bullet> Working jointly with the U.S. Department of 
        Agriculture (USDA) to expand current and new agricultural 
        countermeasures, and develop a plan for safe, secure, state-of-
        the-art biocontainment laboratories for foreign and zoonotic 
        diseases.
    These activities are coordinated at the Federal level through a 
variety of mechanisms, most notably through the Homeland Security 
Council, several subcommittees under the National Science and 
Technology Council and the Office of Science and Technology Policy, and 
through direct coordination with specific departments.
    The overall guiding principle has been to allocate work to the 
private or academic sectors, whenever possible, and only assign work to 
national or Federal laboratories that:
        <bullet> is inherently governmental or quasi-governmental;
        <bullet> involves selected core competencies;
        <bullet> does not provide sufficient financial incentive to 
        attract industry involvement;

    The vast majority of work that is performed in the private or 
academic sector goes through normal competitive processes that range 
from Requests for Proposals to Broad Agency Announcements (BAA) with 
source selection based on programmatic review.
    For work to be performed at the National Laboratories, the Office 
of Research and Development Program Manager, working with the 
designated Thrust Area coordinator, decides which laboratory should 
perform the work based on internal proposals and knowledge of the 
relative strengths of each laboratory.
    Applying these guidelines has resulted in the following major roles 
for each of these entities:

<bullet> DOE National Laboratories: building on their strong 
computational capabilities and role in the intelligence community, the 
National Labs have established and operate the Biodefense Knowledge 
Center; continue to provide technical reachback support for the 
BioWatch monitoring system which they piloted; and continue to play a 
major role in assay development for the highly specific recognition of 
biological agents, having built a successful partnership with the 
Centers for Disease Control and Prevention (CDC) and other Federal 
agencies in developing secure, robust validated assays for government 
applications.
<bullet> Other Federal Laboratories: provide unique government 
facilities for working with biological agents. The U.S. Army Medical 
Research Institute for Infectious Diseases (USAMRIID) provides interim 
housing for the National Biodefense Analysis and Countermeasures Center 
(NBACC); the U.S. Department of Agriculture and Food and Drug 
Administration laboratories for characterizing the stability of 
biological agents in various food matrices; the Edgewood Chemical and 
Biological Center for independent testing of detection systems; the 
Environmental Protection Agency and the CDC for the collection and 
analysis of BioWatch samples respectively.
<bullet> Private Sector: provides operational support for NBACC, 
BioWatch and Plum Island Animal Disease Center; provides unique 
facilities and capabilities for supporting NBACC; provides the 
technology and transition to the marketplace for next generation 
detection technologies to help meet needs for such systems as a fully 
autonomous 3rd Generation BioWatch Detection system, rapid detection 
systems that can act like ``bio smoke alarms'' for critical facilities, 
detection systems for monitoring central food processing facilities, 
novel detection systems for better characterizing forensic samples and 
for charactering unknown or emerging agents; and the development of 
novel assays to support these new detection platforms.
<bullet> Academic: draws on the expertise of the university Centers of 
Excellence to provide the longer term R&D needed to respond to an 
evolving threat and to train the next generation of homeland security 
scientists. These include:
        <bullet> Fundamental insights into the nature of terrorism 
        (Study of Terrorism and Responses to Terrorism, University of 
        Maryland);
        <bullet> Research on the environmental risks posed by various 
        biological agents (Center for Advancing Microbial Risk 
        Assessment, Michigan State University);
        <bullet> Evaluation of current risk assessment tools and the 
        development of next generation tools (Center for Risk and 
        Economic Analysis of Terrorism Events, University of Southern 
        California);
        <bullet> Research into potential threats to animal agriculture 
        (National Center for Foreign Animal and Zoonotic Disease 
        Defense, Texas A&M University); and
        <bullet> Post-harvest food security (National Center for Food 
        Protection and Defense, University of Minnesota)
    Given the rapid pace of advancement in biotechnology and its 
attendant implications for evolution in both the available 
countermeasures and in the future, a variety of mechanisms are used to 
stay informed of future developments including: formal technology 
watches and assessments; sponsoring of scientific conferences and 
National Academy Studies; participation in the program reviews and 
planning process of other agencies; pre-BAA workshops for ideas and 
tools to address specific needs; annual DHS S&T conferences to make 
known our strategies and to meet with developers in special breakout 
sessions; and frequent contact with developers throughout the year to 
learn of their capabilities, products, and ideas.

Making the Nation Safer
    S&T has also made great strides in addressing many of the 
recommendations from the post-9/11 study by the National Academies of 
Science entitled Making the Nation Safer. Examples from our biological 
defense activities include:
        <bullet> Creating networks for detection and surveillance--we 
        have pioneered the Nation's first biological monitoring system, 
        BioWatch, operating in more than 30 urban areas to detect 
        biological threat agents and are working with our interagency 
        partners to developing a nationally coordinated approach to 
        biodetection, including mutually agreed upon bio-detection 
        assays and notification protocols.
        <bullet> Develop and coordinate bioterrorism forensics 
        capabilities--we established the National Bio-Forensics 
        Analysis Center (NBFAC), as the Nation's only dedicated secure 
        operational bioforensics laboratory. This capability, operated 
        in partnership with the FBI, did not exist prior to the events 
        of 2001 and has been designated in the President's Biodefense 
        for the 21st Century as the lead federal facility for the 
        technical analysis of bio-crime and bio-terror related samples 
        in a secure environment.
        <bullet> Developing methods and standards for decontamination: 
        DHS has partnered with the San Francisco International Airport, 
        EPA, CDC, local, regional and state agencies to develop and 
        demonstrate improved protocols and sampling techniques for 
        restoring airports and other transportation hubs following a 
        biological event; sponsored an NAS study on ``Reopening Public 
        Facilities After a Biological Attack''; currently co-chairs, 
        along with the EPA, the Subcommittee on Decontamination 
        Standards and Technology under the aegis of the National 
        Science and Technology Committee; and is leading an interagency 
        effort to develop improved sampling strategies and 
        methodologies.
        <bullet> Create special research organizations to address both 
        classified and unclassified issues related to countermeasures 
        to bioterrorism: the DHS National Biodefense Analysis and 
        Countermeasures Center is dedicated to just such a capability, 
        providing a dedicated, secure environment to conduct laboratory 
        experiments to close key gaps in our understanding of those 
        aspects of the biological threat that bear on the effectiveness 
        of our countermeasures and to conduct the analytical risk 
        assessments required under the President's Biodefense for the 
        21st Century, to help prioritize these threats and inform the 
        allocation of national resources.
        <bullet> Establish laboratory standards: DHS plays a 
        significant role in the Integrated Consortium of Laboratory 
        Networks (ICLN) which is developing a system of Laboratory 
        Response Networks, including the associated standards and 
        protocols, to collectively address the full range of chemical, 
        biological, radiological and nuclear threats.

Conclusion
    I thank the Subcommittee for this opportunity to present my plan 
and vision for the Science & Technology Directorate, and to provide 
insights into the Directorate's process of prioritizing R&D investments 
that will strengthen our nation's ability to detect, protect against, 
respond to, and recover from acts of terror as well as acts of nature. 
In the weeks and months ahead, we will be finalizing and implementing 
our plans to create a more responsive, customer-focused and robust 
science and technology management organization that I am confident will 
prove to be a vital national asset. I will be happy to address any 
questions you may have.

    Mr. Linder. Mr. OXford.

STATEMENT OF VAYL OXFORD, DIRECTOR, DOMESTIC NUCLEAR DETECTION 
            OFFICE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Oxford. Good afternoon, Chairman and Mr. Langevin, and 
distinguished members of subcommittee. I would like to thank 
the committee for the opportunity to discuss the Research and 
Development activities of DNDO and how these activities will 
directly address the nuclear and radiological threat. I am 
pleased to be here with Dr. Marburger and Under Secretary Cohen 
as well. DNDO has embraced a multi-layered homeland defense 
system, much like the one recommended in the 2002 National 
Academy Report Making the Nation Safer, the Role of Science and 
Technology in Countering Terrorism. Over 60 percent of DNDO's 
fiscal year 2007 budget request is intended for R&D activities. 
We believe this level of investment is necessary to achieve our 
R&D development goals. Through these investments DNDO is 
improving the capabilities in detection and interdiction of 
radiological and nuclear threats. I would like to share 
highlights in some of these areas.
    First of all, we have completed initial development and 
high fidelity testing for the Advanced Spectroscopic Portal 
program or ASP. On July 14th, we awarded contracts to Raytheon 
Company, Thermo Electron Corporation, and Canberra Industries 
for low rate initial production of those systems. After further 
testing this fall, we expect full rate production to begin in 
2007. To detect shielded materials like special nuclear 
material, DNDO is developing the next generation radiography 
system. The Cargo Advanced Automated Radiography System, or 
CAARS, will automatically detect, within cargo, high density 
material that could be used to shield threat materials. On 
September 8th, contracts were awarded to L3 Communications, 
American Science and Engineering Incorporated and SAIC 
Corporation for the development of the CAARS system.
    DNDO also continues to develop handheld, backpack, mobile, 
and relocatable assets. Through this program, we will improve 
the probability of identification, wireless communications and 
durability of these systems. One specific goal set by the 
Secretary in this area is to deploy radiation detection 
capabilities to all Coast Guard inspection and boarding teams 
by the end of 2007.
    Our exploratory research program is exploring new detection 
materials and active interrogation techniques evolving 
algorithms and conducting phenomenology studies to improve 
detective performance and increase system accuracy and 
reliability. In December of 2005, we published a call for 
proposals to the national and Federal laboratories, received 
150 proposals, and selected 44 for award resulting in nearly 
$40 million of advanced research in nuclear protection. In a 
similar way, DNDO released a solicitation in March of 2006 to 
private industry and academia, and are now evaluating over 70 
proposals for awards in the similar areas.
    We are launching several advanced technology demonstrations 
or ATDs to validate concepts and then transition to system 
development. In 2007, exploratory research efforts in special 
nuclear material verification will transition to an ATD. This 
active verification of special nuclear material will enhance 
detection identification through the development of gamma and 
neutron-based direct detection techniques. In April, we 
solicited proposals for our first ATD the intelligent personal 
radiation locator to replace existing radiation pagers with a 
pocket-size radio isotope identifier with wireless 
communication capability. It will be used by law enforcement, 
first responders and counterterrorism agencies in routine 
activities and surveillance.
    We will also pursue a stand-off detection ATD to locate and 
identify nuclear threat materials at a distance beyond 100 
meters.
    Finally, a long-dwelled detection in-transit ATD is planned 
to explore our capabilities to exploit the time available 
during cargo transit to detect threat materials in cargo and 
conveyances. Also in the transformational research area, our 
academic research program will provide a much-needed emphasis 
in nuclear detection sciences, a field that has been in decline 
at American universities for years.
    In fiscal year 2007, DNDO will assume the mission to stand 
up and manage the National Technical Nuclear Forensic Center on 
behalf of the U.S. government, with its mission to develop an 
overarching national level technical forensics and stewardship 
program for the U.S. government. DNDO will be responsible for 
developing capabilities in pre-detonation material forensics to 
support attribution authorities as they conduct collection, 
analysis, and enforcement missions.
    Finally, as Secretary Chertoff announced in July, we have 
launched the Securing the Cities Prgram. This initiative is 
intended to enhance the protection capabilities in and around 
the Nation's highest risk urban areas. Using the New York City 
area as the initial engagement area, DNDO and regional partners 
will develop an analytically based detection architecture that 
will lead to identification of needed equipment, training and 
support infrastructure to protect those environments.
    Mr. Chairman, this concludes my prepared statement. I look 
forward to your questions.
    [The statement of Mr. Oxford follows:]

               Prepared Opening Statement Vayl S. Oxford

    Introduction
    Good afternoon Chairman Linder, Ranking Member Langevin, and 
distinguished members of the subcommittee. As Director of the Domestic 
Nuclear Detection Office (DNDO), I would like to thank the Committee 
for the opportunity to discuss the research and development (R&D) 
activities of DNDO and how these activities will directly enhance the 
probability of mission success. I am pleased to be here with other 
distinguished witnesses, Dr. Marburger and Under Secretary Cohen.
    In the past, I shared with this subcommittee some of the ways that 
DNDO is working with Customs and Border Protection (CBP) and the 
Department of Energy (DOE) to deploy radiation detection equipment 
domestically and overseas. Collaborating with our implementing partners 
to increase the effectiveness of nuclear detection globally is vital. 
However, greater security can be achieved through the development and 
deployment of increasingly sophisticated and innovative technologies 
throughout all three layers of the global architecture--overseas, at 
our borders, and within the United States.
    As such, the DNDO has embraced a multilayered homeland-defense 
system much like the one recommended in the 2002 National Academies' 
report, ``Making the Nation Safer: The Role of Science and Technology 
in Countering Terrorism.'' This methodology requires improved 
capabilities in detection and interdiction of illicit materials, 
intelligence fusion, data mining, attribution, and effective response 
to nuclear and radiological threats. To address these requirements, the 
DNDO maintains a preeminent research and development program, while 
simultaneously capitalizing on the benefits of integrating this program 
with larger acquisition efforts. Over 60% of DNDO's fiscal year 2007 
budget request is intended for R&D activities. We believe this level of 
investment will help us achieve both R&D and acquisitions goals.

 Detection and interdiction of illicit materials
    The DNDO improves the probability of detection and interdiction by 
integrating and deploying current technologies, continually improving 
these technologies through near-term enhancements and transformational 
research and development, and expanding detection capabilities at the 
Federal, State and local levels. The technical challenges to 
radiological and nuclear detection that we face stem from trying to 
resolve operational challenges and other obstacles to effective 
detection like proximity to a source, shielding of a source, velocity 
of a transported source, and decreasing the rate of false and nuisance 
alarms.
    DNDO development programs are directly tied to robust systems 
engineering and test and evaluation programs. The aim is to ensure that 
all acquired systems address identified capability gaps and have been 
fully evaluated prior to any acquisition decisions. Additionally, all 
deployed technologies will be accompanied by the appropriate training, 
exercise, and response protocols. This will ensure that systems are 
operated properly, and all alarms are immediately reported to the 
appropriate agencies and personnel. Deployed systems will also be red 
teamed to assess their true impact on homeland security.
    While the baseline architecture will continue to be documented, the 
architecture team has begun examining options for strengthening the 
architecture in the near and long-term. These options will be evaluated 
in terms of risk reduction, direct and indirect costs, operational 
feasibility, and other relevant decision factors. In addition, 
recommended enhancements are being identified and prioritized. The DNDO 
and its internal interagency staff are reviewing and refining the 
recommendations to reflect the full range of technical and policy 
factors that must be addressed in determining the preferred overall 
architecture.
    The international portions of the architecture are being developed 
in close coordination with the Department of Defense (DOD), DOE, and 
Department of State (DOS), as well as components of Department of 
Homeland Security (DHS) with international responsibilities and 
relationships. The border portions are closely coordinated both within 
DHS (e.g., with CBP and the Coast Guard), as well as with other 
relevant agencies. The interior portions of the architecture are being 
closely coordinated with the Department of Justice (DOJ), Federal 
Bureau of Investigation (FBI), and other Federal, State, and local 
entities.
    A critical component of the DHS nuclear countermeasures 
architecture is a passive radiation detection portal suitable for 
examining cargo containers, trucks, privately-owned vehicles, mail, and 
bundled cargo. The Advanced Spectroscopic Portal (ASP) program is a 
next-generation radiation portal monitor that rapidly and accurately 
detects the presence of radiation at realistic operational settings, 
and also identifies the materials causing the alarms. This allows the 
dismissal of alarms caused by non-threatening sources, thereby reducing 
the operational burden due to nuisance alarms.
    We have completed the initial engineering development phase of ASP 
and in support of this program have executed the first ever high 
fidelity test and evaluation campaign to measure the improvements in 
performance provided by these next-generation systems. To address 
concerns about the additional cost of these next-generation systems, 
DNDO also completed a Cost-Benefits Analysis of ASP and poly-vinyl 
toluene (PVT) radiation portal monitors (RPMs). We demonstrated that 
purchasing and deploying a mix of current and next-generation systems 
would result in time-savings costs, while significantly enhancing the 
effectiveness of DHS Customs and Border Protection (CBP) secondary 
inspection operations, as well as greatly reducing secondary referral 
rates when ASP-like systems are used as a means of primary inspection.
    On July 14th, 2006, DNDO awarded contracts to Raytheon Company, 
Thermo Electron Corporation, and Canberra Industries, Inc. for the 
development and production of ASP were announced on July 14. The 
priority for the first year is development and testing of the fixed 
radiation detection portal that will become the standard installation 
for screening cargo containers and truck traffic. In the near future, 
the DNDO will conduct testing and data collection of the first 27 ASP 
units at the Nevada Test Site (NTS), the New York Container Terminal 
(NYCT), Pacific Northwest National Laboratory (PNNL), and selected 
Ports of Entry (POEs) located in the north, south, east, and west. The 
DNDO will complete system qualification testing and the subsequent 
engineering changes as required--ensuring the pilot and production ASP 
units can withstand shock, vibration, temperature gradients, and other 
environmental stresses. Full-rate production (a decision based upon 
test results) is expected to begin in 2007.
    The DNDO, in cooperation with CBP, will install and commission 
fixed and mobile ASPs ordered in FY 2006 (including 24 pilot units) and 
is planning orders for additional cargo portals, 30 SUV/truck--based 
systems, and 2 rail systems. By the end of calendar year 2007, planned 
deployments of current (PVT) and next generation (ASP) portals to all 
major seaports will provide coverage of 98% of all incoming seaborne 
containerized cargo, as well as over 90% of all containerized cargo 
passing through land border crossings. The DNDO will also be acquiring 
ASP systems on behalf of DOE for deployment through the Megaports 
Initiative, further enhancing the broader U.S. strategy to scan 
incoming cargo before it reaches our borders. A Memorandum of Agreement 
on DNDO/DOE cooperation is in negotiation and DOE has identified funds 
for the purchase of twelve ASP systems.
    While spectroscopic portals will provide a next-generation 
capability to passively detect unshielded or lightly shielded nuclear 
materials, no passive system can detect nuclear materials that are 
heavily or completely shielded. Radiography systems (using active 
imaging techniques) can provide a solution to the challenge of 
detecting shielded nuclear material. To detect heavily or completely 
shielded materials like special nuclear material (SNM), and 
particularly highly enriched Uranium (HEU), DNDO is developing a next-
generation radiography system that will minimize negative impacts on 
commerce and the flow of traffic. Cargo Advanced Automated Radiography 
System, or CAARS, will automatically detect high-density material 
shielded within cargo that could escape detection by radiation portal 
systems, like ASP. The automated image processing techniques envisioned 
for CAARS will also substantially improve throughput rates over current 
generation radiography systems. On September 8th, contracts were 
awarded to L-3 Communications, American Science and Engineering, 
Incorporated, and SAIC Corporation for the development of CAARS.
    Fundamentally, DNDO believes that a combination of passive 
spectroscopic systems and advanced radiography systems will allow us to 
detect unshielded, lightly shielded and heavily shielded nuclear 
materials, components, and weapons that may be illicitly transported in 
cargo containers, air cargo bundles, or other conveyances.
    In addition to portal monitors and radiography systems, DNDO is 
investing substantial funds to continue developing handheld, backpack, 
mobile, and re-locatable assets for non-Port of Entry (POE) venues. 
These systems are designed to integrate into existing law enforcement 
operations, providing cues for further investigative action when 
radiation is detected. DNDO acquired 88 improved handheld units in 
fiscal year 2006, of which 83 were provided to CBP operators for use in 
obtaining operational feedback for spiral development. We expect to 
purchase 407 handheld units in fiscal year 2007. Two Hundred and fifty 
seven units will be provided to CBP operators and 150 units will be 
provided to the USCG. By the end of FY 2007 the USCG will have rad/nuc 
detection capability for all inspection/boarding teams. Each system 
will have improved probability of identification, improved ability to 
communicate with a reachback center, and better durability for rugged 
field conditions.
    We are also engaging with the Coast Guard (USCG) and State and 
local partners to address the challenges associated with radiation 
detection in the maritime environment. The harsh environment and 
operational constraints that the USCG faces makes development of 
effective operational equipment a considerable technical challenge. As 
the Secretary has stated, one major goal for this Department is the 
deployment of radiation detection capabilities to all U.S. Coast Guard 
inspection and boarding teams by the end of 2007. To ensure that the 
Department accomplishes the Secretary's goals, DNDO is committed to 
developing a Joint Acquisition Plan with the Coast Guard to provide 
handheld and backpack radiation detection devices that will fulfill 
imminent operational needs in fiscal year 2007, as well as lead to the 
development of next-generation technologies that have the 
identification capabilities, connectivity, and ruggedness required in 
the maritime environment.
    Despite the progression of our near-term R&D efforts, there are 
still key, long-term challenges and vulnerabilities in our detection 
architecture that require long-range, higher risk research programs to 
deliver the highest payoff improvements in detection capabilities. Our 
transformation research and development work will render next-
generation technologies that address the current limitations of 
deployed systems. Significant advances in radiation detection 
technology could potentially impact all capability gaps in our present 
detection architecture, from the ubiquitous, distributed network of 
inexpensive radiation detectors to highly sensitive, standoff detection 
systems for sensing mobile threats at speed. We are launching 
initiatives to develop technologies to meet architectural challenges by 
pursuing a robust Exploratory Research Program to stimulate the entire 
field of nuclear detection sciences. The effort will involve 
participants across private industry, the National Laboratories, and 
academia. In order to achieve effective coordination between the 
numerous government agencies involved in related work on nuclear 
detection, the DNDO participates in the Counterproliferation Program 
Review Committee, co-chaired by DOD and DOE with members from the 
Intelligence Community, Department of State, and others, which provides 
a yearly report to the Congress and works to ensure that technology 
development in this area is fully integrated.
    The discovery and development of new detection materials and 
concepts is a major focus of DNDO exploratory research over the next 
five years. We continue to pursue new methods and signatures that will 
provide techniques for verification of shielded special nuclear 
materials. In addition, we are adjusting algorithms and devising new 
models to improve the technical capacity of the equipment and increase 
the accuracy and reliability of the systems for operators. We are also 
conducting experiments and modeling to find ways to reduce the false 
alarm rate so that background radiation and non-threat sources are not 
necessitating escalated response protocols and wasting the time of law 
enforcement operators.
    In December 2005, DNDO published a Call for Proposals to the 
National Laboratories soliciting novel detection approaches, materials, 
and advanced technologies. DNDO received over 150 proposals, and 
ultimately selected 44 for award, resulting in nearly $40 million in 
research programs. Similarly, DNDO released a solicitation in March 
2006 for private industry and academia proposals in the same research 
topics. Over 200 white papers were submitted, and we are now in the 
process of evaluating 70 proposals for additional awards.
    Beginning in 2007, we anticipate a third solicitation, specifically 
to support our Academic Research Program. This program will provide a 
much needed emphasis in nuclear detection sciences, a field that has 
been in decline at American universities for years. The future security 
of our Nation requires such a rejuvenation effort at our universities. 
A consistent, sustained program to spur the academic community will 
provide the nuclear detection experts of the future. In addition, the 
program will foster potentially high risk but high payoff ideas that 
could lead to solutions that have not yet been considered.
    We are also launching several Advanced Technology Demonstrations 
that will provide concept validation, the last phase in our exploratory 
research process. The first ATD is the Intelligent Personnel Radiation 
Locator (IPRL) that we solicited proposals for in April 2006. IPRLs are 
intended to ultimately replace the limited detection capability of 
existing radiation pagers with pocket-sized radioisotope detectors and 
identifiers that will wirelessly communicate with similar devices in 
the vicinity, automatically combining data to increase sensitivity and 
triangulate directional information. These devices will have sufficient 
energy resolution and sensitivity to reliably discriminate between 
normally-occurring radioactive materials (NORM), background, and 
potential threats, and will be used by law enforcement, first 
responder, counterterrorism, and possibly intelligence agencies in 
routine activities and surveillance. This year, the DNDO funded 3-year 
prototype-development efforts for IPRLs. The ATD will culminate in test 
and evaluation of the IPRL prototypes in early fiscal year 2009.
    We are also pursuing the Stand off Detection ATD that aims to 
extend nuclear detection ranges beyond 100 meters, potentially allowing 
for airborne platform applications. Stand-off detection and imaging 
address the need for the capability to locate and identify nuclear 
threat materials at a distance, in both land and maritime environments. 
The DNDO will look at key existing technologies like gamma-ray imaging, 
advanced detection algorithms, and sensor and data fusion techniques 
that may dramatically improve sensitivity and directional accuracy. A 
solicitation on this topic will be released later this year.
    Also in 2007, we expect that research into SNM verification will be 
transitioned to an ATD. We anticipate that active verification (AV) of 
SNM will be developed for secondary and primary screening at high 
throughputs to enhance detection and identification through development 
of gamma and neutron-based interrogation techniques.
    Currently, we are pursuing an experimental modeling campaign to 
determine and characterize the background for cargo containers at sea, 
in order to determine the potential false alarm rates and feasibility 
of such systems. Following this effort, a Long Dwell Detection In-
Transit ATD is being planned to explore our capabilities to exploit the 
time available during cargo transit to detect threat materials in cargo 
and conveyances.

Intelligence fusion and data mining
    Successful detection alone will not lead to mission success. The 
DNDO must ultimately have the ability to fuse detection data and 
intelligence assessments in a near real-time environment to maintain 
overall system and situational awareness. This plan will require the 
DNDO to closely interact with the Intelligence Community, through the 
DHS Office of Intelligence and Analysis (I&A), as a developer of 
intelligence requirements and consumer of intelligence products. 
However, it should be made clear that the DNDO will not act as an 
intelligence collection agency. To meet the information and analysis 
mission, the DNDO has established the Joint Analysis Center (JAC). The 
JAC will enhance the effective sharing and use of nuclear detection 
information and intelligence from all mission related detection systems 
to provide a greater situational awareness of the nuclear and 
radiological threat. By fusing the international and domestic detection 
streams of information generated by the intelligence and 
counterterrorism communities, the JAC will be able to provide a better 
informed decision making environment, enabling more effective alarm 
resolution, trend analysis, and threat awareness. Additionally, this 
information and analysis capability will be integrated with a detailed 
understanding of current and future detection system performance to 
increase our awareness and confidence in the global detection 
architecture.

Forensics and Attribution
    The DNDO must also support national capabilities to conduct 
forensics in support of attribution activities. In fiscal year 2007, 
DNDO will assume the mission to stand up and manage the National 
Technical Nuclear Forensics Center (NTNFC) with its overarching 
national-level technical forensics stewardship and integration mission. 
In addition to leading the NTNFC, DNDO is responsible for the DHS 
mission in pre-detonation materials forensics. This area is focused on 
bulk analysis and integration of all sources of technical information, 
including isotopic and chemical composition, physical structure, and 
route attribution. We will help develop and sustain pre-detonation 
concept of operations and technical capabilities to handle and analyze 
nuclear and radiological materials; establish, maintain, exercise, and 
operate collection and analysis capabilities for pre-detonation 
materials in support of the law enforcement community; and support 
appropriate research and development activities to address gaps and 
shortfalls in forensics capabilities.

Effective response to nuclear and radiological threats
    As nuclear detection technology is deployed across the global 
architecture, the Federal government must commit to providing the 
necessary technical support to ensure that equipment is used 
effectively, alarms are resolved accurately, and the appropriate 
personnel are notified in the event of a legitimate detection of a 
threat. In recognition of this need, the DNDO provides operational 
support services; including 24/7 technical reachback support for alarm 
resolution, effective training and response protocols, and operational 
support coordination to ensure appropriate expertise is in place to 
support prompt resolution of nuclear/radiological detection alarms. The 
effective utilization of these services will ensure that deployed 
equipment is properly used and alarm information is appropriately 
reported and escalated to response agencies. While DNDO is responsible 
for coordination of the response to nuclear and radiological threats, 
the DOE, FBI, and DOD are responsible for deploying personnel in the 
event of an alarm and have the necessary technical expertise to help 
identify the item in question.
    DNDO is also taking steps to expand detection capabilities within 
the domestic interior. Within our Nation's borders, we are leveraging 
and strengthening existing commercial vehicle inspection programs and 
surveillance capabilities to make domestic detection more effective and 
these initiatives will make use of next generation equipment 
deployments. We have launched the Southeast Transportation Corridor 
Pilot program to deploy radiation detectors to interstate truck weigh 
stations and other sites. These deployments will be at locations agreed 
to by our regional partners in accordance with the domestic detection 
architecture developed by the DNDO. Grants will be available initially 
targeting the states of Georgia, Kentucky, South Carolina, Tennessee, 
and Virginia; to be followed by expected expansion into Alabama, 
Florida, Mississippi, North Carolina, and Washington DC in fiscal year 
2007. Included in the pilot program will be the necessary training, 
technical reachback and operational protocols.
    As Secretary Chertoff officially announced in July, we have 
launched the Securing the Cities program (SCP), that will enhance 
protection and response capabilities in and around the Nation's highest 
risk urban areas. The DNDO will initially work with major metropolitan 
agencies in the New York City area, as well as New York State and other 
Northeast regional partners, to develop preventive radiological/nuclear 
detection programs. This initiative will include an analysis of 
critical road networks, mass transit, maritime, rail, and general 
aviation vulnerabilities. SCP will identify infrastructure protection 
and information sharing improvements, fixed and mobile detection 
deployment augmentation requirements, and source security enhancements. 
The initiative will include integrated training and exercise 
opportunities in support of the New York City area and Northeast 
region. The DNDO and regional partners will jointly develop analysis-
based detection architectures, to include all necessary planning, 
equipment, training, exercises, and operational support infrastructure. 
As these initiatives mature, it is expected that equipment (including 
Advanced Spectroscopic Portal systems) will be deployed and operated 
and the lessons learned will be exported to other regions and cities to 
enhance our overall protection against nuclear and radiological 
threats. We are currently in the midst of our program design and 
deployment planning phase for this initiative.

Conclusion
    As the National Academies report concluded in 2002, while progress 
was being made by the R&D and policy communities related to nuclear and 
radiological terrorism, a key deficit in USG efforts was the lack of 
coordination across the Departments and agencies The founding of the 
DNDO as an interagency coordinating office, its focus on the entire 
global architecture, and the desire to produce technological solutions 
which benefit the entire homeland defense community, directly addresses 
this concern.
    Yet, while technology is a critical tool in combating the nuclear 
threat, the threat we face cannot be effectively overcome by technology 
alone. Coordination between Federal, State, tribal, and local law 
enforcement agencies, as well as the larger intelligence and 
counterterrorism communities, is critical. An integrated and 
cooperative approach to detection and information analysis will 
ultimately provide substantial improvement in alarm resolution, threat 
assessments, data trend analysis, and, most importantly, overall 
probability of mission success.
    This concludes my prepared statement. With the committee's 
permission, I request my formal statement be submitted for the record. 
Chairman Linder, Ranking Member Langevin, and Members of the 
Subcommittee, I thank you for your attention and will be happy to 
answer any questions that you may have.

    Mr. Linder. Thank you all. Dr. Marburger, what is the 
single most significant S&T accomplishment since you have been 
the director of OSTP.
    Mr. Marburger. The single most important initiative that we 
have been involved in is probably this year's Advanced 
Competitiveness Initiative that the President launched in his 
State of the Union message in January. That initiative restores 
funding to some previously underfunded agencies in precisely 
the areas that are necessary to be strong to support Homeland 
Security research, and makes arrangements for improving and 
strengthening education, incentives for industry to engage in 
long term high risk research, and overhauls other policies of 
the U.S. government regarding workforce and immigration 
policies to make our Nation competitive far into the future and 
to provide a research basis for strengthening us in all 
respects.
    Mr. Linder. In your written testimony you said that OSTP 
strategies to address biological and nuclear threats is the 
result of sound scientific input. Do you have a panel of 
scientists on biology and nuclear threats in the private sector 
or the academy where you call them in for peer analysis of your 
science.
    Mr. Marburger. Absolutely, sir. First of all, each of our 
participating agencies relies on external review groups drawn 
from the scientific community and we rely heavily on the 
national academies as I referred in my testimony for expert 
advice on a wide range of issues. In addition, my office runs a 
large number of interagency working groups that draw on 
scientific and engineering talent from within the agencies and 
their laboratories to meet on specific issues and coordinate 
policy and planning across the executive branch.
    Mr. Linder. Secretary Cohen, we have been having a 
difficult time getting information, programmatic and budget 
information from the S&T directorate for some time. I hope you 
will make an effort to correct that and speed that up, too.
    Questions have been raised and you are brand new, a lot of 
questions have been raised about S&T for some time. But the 
questions that have been raised about the lack of peer review 
at S&T, would you like to comment on that?
    Mr. Cohen. Well, peer review is the longstanding goal 
standard by which we do basic research. The S&T directorate, as 
it is currently organized, and that is my organization which I 
am responsible for, is a full service S&T management 
organization. My directorate does not do S&T. I manage S&T. I 
resource S&T. And so it has three components: Basic research, 
applied research, and advanced technology. The scientists focus 
on the basic research. The matrix in that area are degrees, 
published papers, peer review, symposia, patents, and awards.
    On my output function in advanced technology there you can 
consider that acquisition lite, l-i-t-e, where you have given 
me and the other S&T officials in the government, the ability 
to put millions of dollars at risk in science and technology to 
prevent billions of dollars in acquisition from being at risk. 
That is the right model. It is obviously focused risk, with 
risk comes the chance of failure, but also the chance of great 
leaps ahead and breakthroughs.
    The metrics in advanced technology are cost schedule and 
capability, Two totally different sets of metrics. It is a 
schizophrenic organization. Scientists don't like to give up 
their discoveries because they then have to move on to a new 
discovery. Engineers don't like to take the time it takes to 
have discoveries reach maturity because they are on a tight 
time line to deliver capabilities and fill requirement 
shortfalls for the customer or the customer of the customer.
    So in basic research, my division heads overseeing their 
research section, directors use as appropriate peer review, the 
academies, who are very familiar with that as we look at new 
lines of research, we validate those with the national research 
counsel, with the academies, both science and engineering. It 
has its place, but I am much broader than that, sir, and you 
expect more of that from me.
    Mr. Linder. Mr. Oxford, in the 2000 report making this 
Nation safer by the national academies, makes many 
recommendations focused on prevention of nuclear attack. How 
are we doing 4 years later?
    Mr. Oxford. Well, Mr. Chairman, let me, again, reiterate 
some of the successes we have had and maybe get to some of the 
ranking member's questions as well. Since we established DNDO, 
the budget has grown from what I inherited as a $95 million 
budget to something that is over 500 million in the 2007 
request. The acquisition budget has doubled in the 2 years 
since we have established the Office.
    By the end of this year, we will be screening 80 percent of 
all incoming seaborne cargo containers. By the end of 2007, we 
will have achieved 98 percent of the incoming containers, and 
we will be over 90 percent at each of our northern and southern 
borders.
    So in that regard, along with the joint diployment strategy 
that we have with Customs and Border Protection, we think we 
have a solid plan to capture the maritime and landborne cargo 
coming into this country. We have now set our sights in our 
strategic planning function to look at other threat pathways of 
concern to specifically, the air pathways general aviation and 
smaller maritime craft that could be the conveyances also, 
besides the cargo container.
    To go back to some of your previous questions, we have 
established both an internal and an external peer review 
process. We are working with the National Science Foundation as 
a body to review our transportational research programs, to 
ensure that we get it right. That is, as you know, a national 
body to do that. We are also establishing through the Homeland 
Security Advisory Committee, a group to peer review our 
architecture and R&D efforts.
    We are also working with Dr. Marburger, Science Technology 
Council, to look at technology road maps in this area. So 
again, we have an external review process. We are standing 
something up through the National Defense University to look at 
our long-term architecture priorities to make sure that we are 
not deceiving ourselves; that we have it right.
    And finally, we have a robust red teaming process as part 
of our internal independent assessment to make sure that our 
processes and procedures are accurate.
    Mr. Linder. Thank you. My time has expired.
    Secretary Cohen, I am going to have my staff submit for 
your attention some very specific questions we have regarding 
the S&T particularly with the funding processes, IPAs and 
biowatch. We will submit that for you to respond in writing, if 
you would.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Gentlemen, thank you 
again for your testimony today.
    Dr. Oxford, I would like to start with you, if I could. You 
have addressed some of my questions in your introduction that 
you just gave, but as you know, I have tried through several 
avenues, to increase funding for radiation portal monitors, 
both domestically and abroad. And I know that, as you reported, 
the contracts have been awarded for limited production of 
roughly 50 high resolution portals using sodium iodide crystals 
by February of 2007.
    So, and the question is, are these deployment plans for the 
Advanced Spectroscopic Portals still on target for February, 
and do you envision an even faster production schedule after 
February? In addition, can you please tell me about your 
coordination efforts with DOE, and also with Customs and Border 
Protection with regards to screening cargo overseas for nuclear 
or radiological threats and have you determined a common 
operating memorandum of understanding, et cetera, regarding 
screening procedures and technology.
    Mr. Oxford. Absolutely. We have now developed a joint 
deployment strategy with Customs and Border Protection for all 
domestic locations. We did this in a cost-effective way to 
manage both risk and cost. If you had looked at us a year ago, 
we would have been suggesting a black and white transition from 
current generation technology to next-generation technology to 
cover all of our ports of entry that would have been a $3.5 
billion proposal.
    By working with CBP and understanding these systems, we 
have now developed a deployment strategy where at low volume 
ports of entry we will use current generation technology in the 
primary screening mode with ASP in the secondary screening mode 
at the large volume locations like L.A./Long Beach, we will use 
ASP in both primary and secondary. That has cut the overall 
cost to that architecture to $1.4 billion. And we think we are 
able to manage risk also by having a cost effective solution. 
That allows us then to build ASP at the rates necessary. We 
have fully budgeted over the next 3 or 4 years to get us fully 
to our deployment goals that we have with CBP. So I think, 
again, for the domestic ports of entry we have a solid plan in 
place, and we are executing according to the schedule.
    Regarding overseas deployment, as you know, DNDO has a 
centralized planning function, but we do decentralize the 
execution. So for overseas locations, we will continue to rely 
on the Megaports program out of DOE to deploy the radiation 
portal monitors at locations overseas. We are currently working 
with the Department of Energy (DOE) and the Department of State 
(DOS) to develop an overseas architecture. You may have seen 
some of the debate this week. We are looking at opportunities 
now to deploy both passive systems and active systems overseas 
in an integrated way to deport that data back to the U.S. and 
make a risk assessment on containers before they are loaded on 
the ship.
    The DOE has agreed that they will buy the next generations 
systems off of our contracts, therefore leveraging our research 
and starting to enhance the deployment capabilities overseas. 
So I think in that regard, we are developing a similar overseas 
plan to what you see now starting to materialize domestically.
    Mr. Langevin. Also I understand that there are currently 
several types of reliable technology used in radiation portal 
monitors, the most talked about are sodium iodide and high--
purity germanium technologies. Recently, the DNDO, I know, had 
three major contracts for Advanced Spectroscopic Portals. Two 
went to companies that utilize sodium iodide technology, and 
one went to a company which uses germanium technology. Just for 
our purposes here, could you explain some of the key 
differences between these two technologies and how they 
operate, what they are able to detect and their respective 
costs, and could you also please expand on how you and the rest 
of the officials at DNDO came to that decision?
    Mr. Oxford. Let me try to make a very quick distinction 
between germanium and sodium iodide. We would consider one a 
medium resolution, but the sodium iodide could do a reasonably 
good job in detecting and identifying materials through the 
sodium iodide crystal. Germanium is considered the gold 
standard in terms of its ability to replicate the nuclear 
signature. The problem has been it has suffered from power and 
cooling supportability issues that not only complicate its 
deployment in terms of a larger footprint, but it has also been 
estimated at being more costly. We got fixed price quotes, as 
part of our contract we just signed. We have cost estimates or 
cost quotes from the vendors in the sodium iodide in the range 
of $357,000, and the germanium costs are almost $700,000.
    So there is almost a 2-1 ratio there. So what we chose to 
do in awarding these three contracts is to put the germanium 
manufacturer on a little slower track to allow them to mature 
the capability to see if we can get the power and cooling 
requirements down as well as the costs through some R&D 
investment because if we can get them to be successful, they 
will be the answer to doing things like rail surveillance.
    Right now, the false alarm rates associated with current-
generation and possibly even sodium iodide would--may lead to 
excessive false alarm rates and you can understand the 
complications of stopping the rail car and having to pull it 
out of a train before allowing the train to proceed. So we need 
very low false alarms. That is one of the potential solutions 
that we would have with germanium.
    Mr. Langevin. Thank you.
    Mr. Linder. The gentleman's time has expired. Does the 
gentleman from Nevada wish to inquire?
    Mr. Gibbons. Thank you very much, Mr. Chairman and 
gentlemen, thank you for being here today. Thank you for your 
service to our country as well. We know this is a very 
important issue. As we look over the DNDO and the R&D budgets 
that are there, some of our concerns are, of course, as 
reprogramming and other priorities take place in the budgeting 
office research and development oftentimes gets left on the 
cutting table. And are you concerned right now with priorities 
that some of your projects, R&D projects, are going to be left 
on the table without sufficient funding?
    Dr. Marburger.
    Mr. Marburger. Yes, sir. I regard myself as an advocate for 
R&D for Homeland Security purposes within the budget process. 
And we try to be responsive to the proposals that come to us 
from Homeland Security. To the extent that the budgeting 
process within the Department has credibility, we can be even 
more vigorous advocates, and I believe that the leadership that 
we have in place today will lead to good results for 
recommendations for their R&D budgets.
    This is basic. Basic research is something that you can't 
just drag at any pace. There are various levels of maturity for 
the technologies and the physical phenomena involved in 
detection, for example, that are rather mature. And advances in 
detection capability particularly are sometimes slow and 
incremental. We always hope for a breakthrough, and that 
requires broad funding of basic physical sciences and we 
support that. But in general, I would say that the research 
specifically associated with Homeland Security, and 
particularly, for countering weapons of mass destruction and 
its effects enjoys a very high priority in the budget process, 
and has many champions within the White House.
    Mr. Gibbons. So there are no specific areas that you can 
relate to this committee which are going to be cut as a result 
of changing budget priorities within the R&D?
    Mr. Marburger. No. I can't speak to specific areas that 
will be cut. We will rely very much on the advice coming to us 
from the Department of Homeland Security and the gentlemen to 
my left.
    Mr. Gibbons. All right. Perhaps Secretary Cohen, you could 
tell us what your philosophy is what you believe your office 
directors are doing with regard to compressing the 
developmental timelines, developmental timelines for projects 
and technologies that were mentioned. I know Mr. Oxford 
mentioned a number of projects, large projects, very difficult 
nuclear projects, detection projects.
    What is the policy within DNDO with regard to compression 
of those timelines because we just heard Dr. Marburger say that 
there are some things that can't be done quickly, and is that 
philosophical or is that a physical obstacle?
    Mr. Cohen. Well, it is actually both, sir, but it is an 
excellent question. I know some of the members who have heard 
this from me will be boring to them, but in science and 
technology, we plant a thousand flowers. That is basic 
research. That is unfettered research. You don't know what you 
don't know and you have got to go up a lot of alleys to figure 
out which ones are blind and Einstein said if you knew the 
answer, it wouldn't be research.
    From those thousand flowers, you harvest a hundred 
projects. That is applied research. From those hundred 
projects, you determine two to three prototypes. That is 
advance technology and from that you get the George Foreman 
grill. That is the profit maker. Now I was the chief of Naval 
research for 6 years and working for civilian and military 
leadership Navy and Marine Corps, and all of those leaders put 
their fingers in my chest and said you have got the wrong 
model.
    Here is your model, you plant one flower. It becomes one 
project, it becomes a prototype and from that, we get the 
George Foreman grill. Now, oh, that that could be. The time 
frames in prototyping and demonstration tends to be in the 1--
to 3-year time frame. The time frames associated with basic 
research tend to be in the 8--to 15-year time frame. And so a 
$75,000 investment in the mid 1970s in the more precise 
measurement of time resulted in global positioning because 
distance is a function of time in 1990. And E equals MC squared 
gave us nuclear power.
    Basic research is ineloquent. It is something that product 
managers and budgeteers find very uncomfortable. When asked 
what we will get in 20 years for our basic research dollars 
today, all I can tell you is if we don't invest, we will have 
nothing and the history of investment in basic research which 
only the Federal government has either the resources or the 
vision to sustain because we don't have the bell labs anymore, 
and we don't have the IBM labs. Everyone is looking at the 
quick kill. We will not sustain the S&T or the innovation or 
the economic strength that has made this country so great.
    Mr. Gibbons. I guess my point was that after a century of 
technology advancements, we are hoping you can compress that 
8--to 15-year time frame into something reasonable so that we, 
those of us who have to give that ineloquent answer to 
constituents know that the time between the money we invest, 
and the defense which they are expecting gets compressed into 
the minimum of time possible.
    You know, we don't want to sacrifice quality, of course, 
but we do have the very inevitable problem that those who are 
looking to harm this country aren't going to wait for the 
scientists to feel comfortable with every avenue looked at in 
getting that technology in to the hands of those that can help 
us.
    Mr. Cohen. Congressman, you have it exactly right. That is 
my job, and in my model, 80 percent of my dollars goes to the 
output function for either near term or breakthrough 
advancements, and that has been my history over the last 6 
years, and I hope to be able to do that in Homeland Security.
    Mr. Linder. The gentleman's time has expired. Dr. 
Christensen seeks to inquire.
    Mrs. Christensen. Thank you, Mr. Chairman. Yes, welcome 
back, Mr. Cohen. Welcome to all of the panelists.
    Dr. Marburger in his written statement lists the four main 
pillars of biodefense: Threat awareness, prevention and 
protection, surveillance and detection and response and 
recovery. I would like to ask a question focused more on the 
response and recovery.
    Because under that, you are to create refine comprehensive 
plans to mitigate the consequences of an attack and provide the 
newest and most effective medical countermeasures. What new and 
effective countermeasures have we developed in the last couple 
of years?
    Mr. Marburger. Countermeasures?
    Mrs. Christensen. For biological.
    Mr. Marburger. For biological are continually evolving in 
the research labs of the Nation. Under the sponsorship of the 
National Institute For Allergic and Infectious Diseases, which 
gets the bulk of bioterrorism funding, there are research 
programs on vaccines and rapid production of vaccines and the 
mechanisms of infectious diseases particularly in their 
programs and modeling and all of the infrastructure that is 
required.
    Centers for Disease Control also have programs to tie 
together the information capability to identify outbreaks and 
some of these have already--
    Mrs. Christensen. That is under the surveillance. But I 
just don't see anything being developed. I am not sure what 
Project BioShield has yielded. I have some notes here that says 
just a small quantity of pediatric iodide and several million 
doses of anthrax vaccine has been added to the S&S recently. So 
we have had people come to testify either before the entire 
committee or one of our sub--maybe the subcommittee, and I 
don't remember the name of the medication, but one is one to 
treat radiation sickness, and the other is to stop bleeding. 
Have they made application, Mr. Cohen, and/or--
    Mr. Marburger. That is a level of detail that I can't 
respond to, but I would be very glad to.
    Mrs. Christensen. I am not seeing anything new coming on 
line.
    Mr. Cohen. If I may, Doctor. I would like to take that for 
the record, and I am glad to meet with you and with people who 
have that answer. But I don't have that at the tip of my 
fingers and I apologize.
    Mrs. Christensen. To follow up on Mr. Gibbons' questions 
about the shortening of the time. It seems to me that while 
maybe for other kinds of countermeasures or technology or 
detection devices that may be a little more difficult to 
shorten the time, but we do have some legislation that would 
direct funding to that research to shorten the time between the 
time we find the bug and develop--can develop a vaccine. Do you 
think that is a little more feasible than maybe for some of the 
other kinds of technologies that you are developing? Because we 
don't know--we may not have ever seen what the agent is before. 
And we can't wait 12 years to get a vaccine or, you know, and 
so wouldn't you think that it would be important for us to 
direct, devote some attention to shortening the time from bug 
to drug?
    Mr. Cohen. Absolutely. And we have to do better. You have 
this exactly right. Regrettably, the only area that you can 
legislate that is in the area of risk management, which you 
have given me in the Safety Act, and I thank you so much for 
that, and also in the FDA kind of world of regulation where 
today, so many discoveries that we fast-track to market, we are 
finding people aren't even applying for patents because the 
process takes so long that they believe, and Jobs is a perfect 
example in this, in iPod, its time to market. Get it to market.
    Develop the market share and then do spiral and continuous 
development and improvement and to heck with the patent because 
you are getting the money based on the profit times, large 
number of things that are going out. So we have to be very 
careful. Just because we legislate or mandate doesn't mean that 
we will get the desired effect. But where we can streamline 
regulatory and remove unnecessary requirements, that would be 
of enormous help, ma'am.
    Mrs. Christensen. Thank you.
    Mr. Linder. Mr. Dicks.
    Mr. Dicks. Thank you, Mr. Chairman. You know on that 
subject, Secretary Cohen, you have the responsibility to do the 
material threat assessments. You are aware of that, right?
    Mr. Cohen. Yes, sir.
    Mr. Dicks. And we think most of the problem has been over 
in HHS. Maybe Dr. Marburger can help us from the White House to 
get somebody's attention over there. But the fellow who was in 
charge of the program left. And with very little having been 
accomplished. This is one area that I think deserves a lot more 
attention than it has gotten, and the administration, I think, 
is very vulnerable to criticism here for the fact that one of 
the material threat assessments we haven't got anything done, 
basically nothing has happened, and Congress passed BioShield 
giving you the money, and you know what is--do you have a 
philosophy on this? I mean, some people say Dr. Fauci is 
running the whole thing. I mean, is there anybody in charge of 
this within the administration who takes it seriously?
    Mr. Marburger. Absolutely, sir.
    Mr. Dicks. Then why hasn't anything happened?
    Mr. Marburger. Well, I take exception to the notion that 
nothing has happened. And I would be glad to respond in writing 
to specifically the progress that has been made since BioShield 
Act was passed. These are difficult problems. We think we have 
responsible and competent people working on them. But I do not 
have that detail at my fingertips to be able to respond to 
that.
    Mr. Dicks. That bothers me that the person in the White 
House was supposed to be ahead of S&T, this is a major area and 
still years have gone by here. We have had all of these 
hearings. I applaud the committee. The committee has had 
hearings on this. This hasn't been a lack of oversight by 
Congress. Dr. Cohen--I mean, Secretary Cohen.
    Mr. Cohen. I am honored, sir, but I will stick with Mr.
    I am the responsible individual and the chairman and 
Congressman Langevin in the SCIF last week took a very detailed 
brief. I am so pleased to have Dr. John Vitko here with me 
today, and he is my division head for chembio. He is the right 
man, but I was not familiar with this a month ago before I got 
here, and I will tell you, I believe and will brief you off 
line, of course.
    Mr. Dicks. Right.
    Mr. Cohen. As I have in the past in the HPSCI, et cetera, 
but this, I believe you will find is a success story because of 
the classification of the consequences, we have not publicly 
done this. But, I think, you will be pleased and I think they 
don't have to comment, but I think the chairman and Congressman 
Langevin understood the extent to which we have accomplished 
your desired goals.
    Mr. Dicks. Why was the decision made to move DNDO out of 
S&T directorate?
    Mr. Marburger. I can speak to that, because I was involved 
in making recommendations to that effect. Because the 
consequences of detonation of even a small and imperfect 
nuclear weapon in a major U.S. city are so profound that we 
felt that it was important to single out this function and give 
it special leadership and special access to the highest levels 
within the Department of Homeland Security to enable it to move 
expeditiously to implement the best technology that we have and 
the best ideas to protect the Nation from such an eventuality.
    Mr. Dicks. Mr. Oxford, do you think this was a good 
decision? Do you think this was the right decision?
    Mr. Oxford. I absolutely think it is the right decision. We 
have brought together the interagency that was not working well 
together to bring a comprehensive focus. When you see an office 
dynamic where I have FBI agents, DOD employees, and DOE 
employees sitting in the same office, day in, day out, working 
one problem, knowing there is a time frame that we have to work 
within, it is a concentrated effort that, I think, in some 
cases could be a model for other efforts, to be honest.
    Mr. Dicks. It might help us on the BioShield issue, could 
be an example. You want to run that?
    Mr. Oxford. No, sir.
    Mr. Dicks. All right. In terms of reorganizations, you took 
the Transportation Security Lab, which was in TSA, and moved it 
to S&T. Why did you do that? Why was that done?
    Mr. Marburger. I can't answer that question. That was an 
internal arrangement that was made within the Department of 
Homeland Security as it was being set up, and I don't believe 
that any of my colleagues here on the panel were there at the 
time that decision was made.
    I believe--I can only speculate. I think that it would be 
inappropriate for me to do so, but I would be glad to respond 
to the question.
    Mr. Dicks. For the record, if you could give us an answer, 
that would be good.
    Mr. Cohen. Congressman, if I may, I was not there for the 
decision, but I believe it was absolutely the right decision. 
And I think you are aware I was sworn in on the 10th of August. 
That was the day that the airline liquid explosives--
    Mr. Dicks. Right.
    Mr. Cohen. --plot broke.
    The very next day I created a team, a rapid response team, 
using a program manager and engineer, who understand how to get 
the deliverables and energetics out the door; the scientist who 
understood the underlying chemistry; and Susan Harwell, who is 
Director of the Transportation Security Laboratory and 
understood the culture and the needs of the FAA, the TSA, the 
air transport environment.
    And then immediately, on the 11th of August, I brought to 
bear our Centers of Excellence, meaning our academic units, as 
well as the Department of Energy labs, which you so wisely gave 
me access to. With the moneys and the talent we have invested 
there in chemistry and physics over the years, we went out with 
a request for information, paralleled that with a safety act 
announcement to get people to come forward with solutions.
    We have over 40 responses in the month. Within the next 30 
days we will be testing those, as well as the COTS, commercial 
off-the-shelf, devices that the Transportation Security Lab had 
been testing over the last year, as well as SBIR devices that 
come forward so that we can give Kip Hawley and the TSA the 
necessary tools they need to ease their problems and increase 
the security. I know there is consideration to move the 
Transportation Security Lab back to TSA.
    I know the frustration, which I accept; I am responsible. I 
came to this job with my eyes open, and I want to be held 
accountable, will be held accountable; but it would be a 
terrible mistake, I believe, sir, at this point, for the Nation 
to move that back. We just need to get on with the solutions.
    Kip Hawley and I have signed an MOU that was in the works 
for 9 months on the Transportation Security Laboratory. We 
signed that literally days after I got into the job, and I 
would ask your indulgence to leave the Transportation Security 
Lab as one of my five organic labs in S&T.
    Mr. Dicks. If I--just one last thing, Chairman.
    Mr. Linder. Sure.
    Mr. Dicks. What is the current status of the Counter-
MANPADS program?
    Mr. Cohen. As you are aware, we provided a very 
comprehensive report to the Congress at the end of July. The 
initial tests, both by BAE and Northrop Grumman, were 
successful. Our large-body aircraft, there are aspects of this 
that I prefer not to discuss in public, but the Congress very 
wisely provided a small amount of money for us to look at 
alternative, nonaircraft-based solutions. We went out with the 
BAE for that. We have got three excellent proposals. We expect 
to announce those awards here very shortly, and we will demo 
that over the next year.
    But in my construct--and I know, Congressman, you are aware 
of what I did with Swampworks and high-risk, high-gain. With a 
very small 1 percent of my budget, I am looking at even higher 
risk, higher gain, off aircraft solutions--which again I don't 
want to discuss in a public venue--that I think industry is 
excited about; and I hope to experiment with those and then 
prototype them very soon.
    But we know how to defeat the MANPADS. The question now is 
one of cost, false alarms, misfires and the legalities of 
having active systems on commercial aircraft.
    Mr. Dicks. Thank you.
    Mr. Linder. Time of the gentleman has expired.
    We are facing a series of three votes, so I would be happy 
to excuse the three panelists on the first panel. Thank you for 
your contributions. Thank you for taking the questions. We will 
expect some answers from you in writing from you on specific 
questions.
    If the next panel of two gentlemen, Dr. Happer and Dr. 
Atlas, would be patient with us, we will be back as soon as 
these votes are over.
    [Recess.]
    Mr. Linder. The remainder of the hearing of the 
subcommittee on nuclear and biological attack will continue.
    We thank Dr. Happer and Dr. Atlas for being patient with 
us. From time to time, we actually have to go and vote at this 
place. We welcome you here. As we said before, your entire 
written statement will appear in the record, and we ask you to 
confine your statements to 5 minutes.
    Mr. Linder. Dr. Happer.

    STATEMENT OF WILLIAM HAPPER, Ph.D., CYRUS FOGG BRACKETT 
            PROFESSOR PHYSICS, PRINCETON UNIVERSITY

    Mr. Happer. Thank you very much, Mr. Chairman and members 
of the committee. My name is William Happer. I am professor of 
physics at Princeton.
    Although I am in academia now, I have spent a good fraction 
of my life participating in national issues. I served as the 
Director of the Department of Energy's Office of Energy 
Research in the early 1990s; I have been a member of the JASON 
Group for nearly 25 years; and perhaps most pertinent to our 
discussion today, I serve, along with Ron Atlas, as a member of 
the Science and Technology Advisory Committee to the Department 
of Homeland Security as Director of Research and Development. 
So we have had a good opportunity to observe there while the 
committee was functioning.
    I also wrote the--or I chaired the panel that wrote the 
chapter on nuclear and radiological threats for the Academy's 
report, ``Making the Nation Safer.'' In the course of that, I 
received, with my panel, many briefings, and there is just no 
question in my mind--and I am sure in almost everyone in this 
room's mind--that the supreme terrorist threat really is a 
nuclear weapon detonated in one of our cities.
    In every study I saw, and I saw lots of them, it is hard to 
avoid at least 100,000 casualties. So somewhere like that is 
the minimum that you start with, plus, you know, all the 
psychic damage, lingering radioactivity. It is a scenario we 
have just got to prevent.
    A point I want to make is that we want to support DNDO as 
much as we can, but the title says ``domestic,'' and the 
biggest part of this problem and where I think the biggest 
payoff is is overseas. And so, as we try to support DNDO and 
homeland security, we want to be sure that the overall balance 
of our efforts to defeat nuclear terrorism includes these 
important offshore activities.
    For example, the work on materials protection and 
accountability that the U.S. has sponsored in the former Soviet 
Union has been extremely helpful to our security, and huge 
numbers of kilograms of highly enriched uranium are secure now 
that weren't when that program started. We want it to continue.
    I certainly think that DNDO is doing the right thing by 
putting most of its focus on nuclear explosives and not dirty 
bombs. We certainly don't want the dirty bombs going off, but 
every study I saw when I was on the panel that wrote nuclear 
and radiological threats for the Academies indicated that it 
was unlikely that anyone would be killed by the radiation from 
a dirty bomb, although certainly the explosive itself was very 
dangerous. There are many things that need to be done there, 
and I think DNDO has the balance about right.
    Also, you know, we have to be realistic about detection. 
There are not going to be breakthroughs with the detectors that 
we know about. There were questions earlier about sodium iodide 
and germanium detectors. These are pretty mature technologies, 
and a lot can be done to improve the engineering of these, but 
they are not going to be breakthroughs. They will be better; 
there may be replacements that don't require so much cooling 
and may be easier to ship around and maintain, but don't expect 
miracles.
    Another thing I urge you to do is, I put a Web site in my 
testimony that you can click on and see a picture of Harold 
Agnew, former Director of Los Alamos on Tinian Island, holding 
the core of the Nagasaki bomb. Have a look. It is this big; you 
know, it is the size of a lunch box. He is quite happy. He has 
no radiation problem, and there isn't much radiation in these 
materials so we have a hard job ahead of us.
    I will not say any more, since I have almost run out of 
time and I don't want to cut into my colleague's time here. So 
thank you very much for your attention. I will be happy to 
answer questions.
    Mr. Linder. Thank you, Dr. Happer.
    [The statement of Mr. Happer follows:]

              Prepared Statement of William Happer, Ph.D.

    Chairman King and members, thank you for the opportunity to appear 
before the Committee on Homeland Security's Subcommittee on Prevention 
of Nuclear and Biological Attack to testify on the how the US Researach 
and Development (R&D) efforts are going in the area of countering 
nuclear terrorism. I am particularly interested in how well these 
efforts track the Recommendations of the 2002 National Academies 
Report, ``Making the Nation Safer: The Role of Science and Technology 
in Countering Terrorism.'' I was the chair of the panel that wrote the 
chapter on Nuclear and Radiological Threats in that report. Ours was 
the first chapter after the introduction, and this reflected the 
consensus of the National Academies that the supreme terrorist threat 
to the United States is the detonation of improvised or stolen nuclear 
weapons in our cites.
    My name is William Happer, and I am the Cyrus Fogg Brackett 
Professor of Physics at Princeton University. Though my present home is 
Academia, I have a long history of participation in national issues. I 
served as the Director of the Department of Energy's Office of Energy 
Research (now the Office of Science) from 1991--1993. I have been a 
member of the JASON group since 1976, where I first became acquainted 
with issues associated with nuclear weapons. I serve on the boards of a 
number of not-for-profit organizations, including the MITRE 
Corporation. I was a co-founder of a successful medical imaging startup 
company, Magnetic Imaging Technologies, Inc., which was based on 
technology developed by my academic research group over the years. 
Perhaps most pertinent to this testimony, I served as a member of the 
Science and Technology Advisory of the Department of Homeland 
Security's Directorate of Research and Development, so I had a good 
opportunity to observe DHS's research and development activities while 
the advisory committee functioned.
    During the time I served on that committee the Domestic Nuclear 
Detection Office (DNDO) was established in DHS, and much of my 
testimony will be focused on how well I think DNDO is doing. I offer 
several observations for the committee's consideration. These represent 
my personal views, and not necessarily those of the organizations with 
which I am associated.
    Observation 1: The DNDO is addressing the supreme terrorist threat 
to our country, the detonation of an improvised or stolen nuclear 
weapon in one of our cities. While preparing to write its report, The 
National Academies Panel on Nuclear and Radiological Threats that I 
chaired received many briefings on research and development projects 
related to this area. What we learned, much of it at the classified 
level, left no doubt that the consequences of a terrorist nuclear 
weapon detonated in a US city would be at least 100,000 prompt 
casualties, unprecedented property damage, and lingering consequences 
from radioactive contamination. Helping to prevent these nightmare 
scenarios is DNDO's most important job, so we should support them in 
every way we can.
    Observation 2: A big part of stopping nuclear terrorism should be 
activities beyond our shores. Unlike many non-nuclear explosives, or 
agents for chemical and biological terrorism, neither highly enriched 
uranium (HEU ) nor plutonium can be made without massive infrastructure 
that could not be supported by a terrorist organization. The special 
nuclear materials will have to be acquired from states that already 
possess that infrastructure. The first and most effective line of 
defense from nuclear terrorism is to prevent terrorist organizations 
from acquiring special nuclear materials in any way ? for example, from 
state sponsors, by theft, armed robbery, or by purchase on the black 
market.
    Nuclear weapons and special nuclear materials in the United States 
are very carefully controlled, so the most likely sources of nuclear 
weapons or the materials to improvise them will be in foreign 
countries. Stopping special nuclear materials at their foreign sources 
is beyond the mandate of DNDO, but as we support DNDO's activities, we 
should also be sure that those government agencies and programs, 
charged with keeping these materials out terrorist hands, are 
appropriately supported. For example, the work on Materials Protection 
and Accountability that the US has sponsored in countries of the former 
Soviet Union has made a very important contribution to our nuclear 
security. I hope that this committee will work other Congressional 
committees to optimize the entire defense strategy against nuclear 
terrorism, both the domestic and foreign components.
    Observation 3: DNDO should put most of its focus on nuclear 
explosives, not radiological dispersal devices (dirty bombs). The 
dispersal of radioactive materials with conventional explosives has 
gotten a lot of press attention, and we certainly would like prevent 
the use of a ``dirty bomb'' like this. But study after study has 
concluded that dirty bombs are not a very good terrorist weapon. The 
radiation from the bomb is unlikely to kill anyone, although the 
dispersing explosive could be lethal. No doubt there would be great 
public alarm, well out of proportion to the actual damage of a dirty 
bomb, and it is appropriate to make plans to deal with this, in 
advance. For example, a more scientific approach to what constitutes 
radioactive contamination would be very helpful. Because of the higher 
elevation, the background radiation dose in Denver is several times 
higher than in New York City or Washington. With good reason, residents 
of Denver do not worry about this. But with present regulations and 
public pressure, we might be forced to declare parts of east-cost 
cities uninhabitable where the residue from a dirty bomb raised the 
background radiation levels to those of Denver. This would be silly. It 
would be much easier to make that point now than after an incident. I 
believe that DHS through its various agencies is already addressing 
this problem, and they should continue.
    The large amounts of radioactive material needed to make a dirty 
bomb are much easier to detect than the relative feeble signals from 
HEU or plutonium. But a massive national network of detectors to make 
life hard for dirty bombers is not a good use of limited resources of 
funds and competent people. We should certainly consider such a network 
if it could be effective against real or improvised nuclear weapons in 
terrorist hands.
    Observation 4: Detecting nuclear weapons is very hard. Recalling 
1946 Senate testimony by Robert Oppenheimer, Kai Bird and Martin J. 
Sherwin (April 25, 2005 issue of The Nation) wrote:
        Sometime that year he was asked in a closed Senate hearing room 
        ``whether three or four men couldn't smuggle units of an 
        [atomic] bomb into New York and blow up the whole city.'' 
        Oppenheimer responded, ``Of course it could be done, and people 
        could destroy New York.'' When a startled senator then followed 
        by asking, ``What instrument would you use to detect an atomic 
        bomb hidden somewhere in a city?'' Oppenheimer quipped, A 
        screwdriver [to open each and every crate or suitcase]."
    What was true in 1946 remains true today. It is very difficult to 
detect special nuclear materials without very close inspection.
    Both uranium, and especially plutonium, are radioactive. Their 
gamma radiation and neutrons can penetrate many packaging materials. 
Given close access to the uranium or plutonium, sufficient time, and 
good passive detectors of gamma rays or neutrons, it is possible to 
identify special nuclear materials. The energy spectrum of the gamma 
rays is especially useful. But HEU has a very feeble signal and is 
especially hard to detect. And while plutonium is much more radioactive 
than HEU, it can be effectively shielded. Lead is a very good shield 
for gamma rays. It is worth remembering that the sailors of our 
ballistic missile submarines bunk close to plutonium-containing 
warheads, but the locations and shielding are such that the sailors do 
not receive an unacceptable dose of radiation during their sea duty.
    Instead of relying on the self-radioactivity of SNM, there have 
been many proposals to use active probes that irradiate suspicious 
packages with x-rays, gamma rays or neutrons. I believe that DNDO is 
sponsoring work on a number of these active devices, and it is entirely 
appropriate that they do so. We need to assess how well active probes 
could work in practice.
    Given the resourcefulness that terrorist organizations have shown 
in the past, one would have to assume that they will make every effort 
to avoid instrumented ports of entry. For example, to avoid detection 
at unexpected instrumented sites, the SNM could be shielded, or it 
could be divided into smaller, harder-to-detect pieces to be assembled 
later in a location that is safe for the terrorists. At the website, 
http://www.lanl.gov/history/people/agnew.shtml you can see a picture of 
the core of the Nagasaki bomb, held by Harold Agnew, a former director 
of Los Alamos on Tinian Island. The point is that Harold had no 
difficulty holding the package, about the size of a shoe box, in his 
left hand. While somewhat larger amounts of HEU are needed for a bomb 
than Pu, the materials we need to intercept are not very large and they 
are relatively easy to conceal and to envelop in radiation shields.
    Observation 5: Improvements, but no breakthroughs, can be expected 
from R&D work on passive detectors. I occasionally read about the need 
for a Manhattan Project to improve nuclear radiation detection. I am 
sure that worthwhile improvements in passive detectors are possible, 
but these are almost certain to be incremental and not breakthroughs. 
To add a little substance to this discussion, recall that the two most 
common types of gamma-ray detectors are scintillation detectors and 
solid-state detectors.
    In scintillation detectors the gamma ray is absorbed in a 
transparent material and produces scintillation, a flash of light in 
the material. The light flash reveals that the gamma ray has been 
absorbed and the brightness of the flash can be used to estimate the 
energy of the gamma ray. Typical scintillating materials for gamma-ray 
detectors with fairly good capabilities to measure the energy of the 
gamma ray are crystals of sodium iodide or cesium iodide with trace 
impurities to increase the brightness of the light flash. A big 
advantage of most scintillation detectors is that they operate at room 
temperature and require no special cooling. The main disadvantage is 
the limited ability of scintillation detectors to measure the exact 
energy of the gamma ray.
    In a second type of detector, the solid-state detector, the gamma 
ray releases electric charges in a semi conducting material. The pulse 
of current from these charges reveals the presence of the gamma ray. 
The amount of charge collected is an excellent measure of the gamma 
ray's energy, much more precise than for a scintillation detector. The 
high energy resolution makes it possible to unambiguously identify 
uranium, plutonium and even the isotopic composition of these materials 
if they are present in sufficient quantities and there is sufficient 
time for the measurement. A disadvantage of solid-state detectors is 
that the best ones, for example, intrinsic high-purity germanium, need 
to be cooled to liquid nitrogen temperatures.
    Both types of detectors have been the subject of many years of 
research and development. But a focused R&D program on passive 
detectors could lead to improvements in performance and better 
suitability for DNDO systems. For example, one could probably develop 
uncooled semiconductor detectors, by using semiconductors with larger 
band gaps than germanium, but this would come at the unavoidable cost 
of somewhat poorer energy resolution.
    We live in a radioactive world and a gamma ray detector will also 
detect cosmic rays coming through our atmosphere from outer space, and 
ionizing radiation from naturally occurring materials. Granite building 
stone normally includes lots of uranium and thorium, and even bananas 
or people, with their naturally occurring content of radioactive \40\K, 
are noticeably radioactive and will trigger counts in gamma detectors. 
A good passive detector for finding special nuclear material will also 
be a good detector of background radiation. If the expected number of 
counts from the background is much larger than that of the package 
containing HEU or plutonium, no amount of detector improvement will 
help.
    Neutrons can also be detected passively, and once again, there has 
been a great deal of work done over the past half century to improve 
the performance of neutron detection. Again, I see the possibility of 
modest improvements in passive neutron detectors but not breakthroughs.
    Observation 6: Bigger improvements can be expected from R&D on 
active detectors than for passive detectors. An active detector uses 
some external probe to look special nuclear materials. For example, the 
probe could be a beam of x rays, gamma rays or neutrons. There has been 
much less work, over the years, on active detectors of special nuclear 
materials than on passive detectors. So there is more room for 
improvement here, especially in reducing the cost and making the 
packages more readily deployable at ports of entry. Active detectors 
will tend to be much more costly and cumbersome than passive detectors, 
since the equipment to make the probing beams is often expensive and 
additional passive detectors are needed as part of the overall system.
    Observation 7: It is important to subject both passive and active 
detectors of special nuclear materials to rigorous experimental 
testing. Testing detectors for special nuclear materials under 
realistic conditions will be essential for real progress. Such tests 
are quite difficult to do. I already mentioned the need to keep special 
nuclear materials out of terrorist hands. An obvious place for 
terrorists to acquire such materials is where tests are being done with 
them. So realistic testing must be done with completely reliable 
security measures. Before the formation of DNDO there were plans to 
build a test facility at the Nevada Test Site, where there is long 
experience in handling special nuclear materials and real nuclear 
weapons. This was going to be an expensive facility, but I thought it 
was a good idea, and I hope that these plans are still on track.
    Observation 8: An appropriate amount of funding should be set aside 
for basic research on radiation detection. In my previous observations 
I have focused on very near-term responses to keeping nuclear weapons 
out of the US. I think that a focus on these near-term problems is 
appropriate, given the immediate threats we are facing. But I would 
urge DNDO to champion a certain amount of basic research that is only 
loosely related to near-term radiation detection. Most of the 
instruments that DNDO is using now originated in basic research in 
nuclear and particle physics. Supporting high quality basic research on 
radiation detection would be a very wise investment. For example, some 
of the most exciting mysteries facing contemporary physics and 
astronomy are the nature of neutrinos. Of all currently known 
radioactive decay products, neutrinos are hardest to detect. Modest 
support of basic research in neutrino detection would be perfectly 
sensible for DNDO or one of its partner agencies with the mission to 
defeat nuclear terrorism. Another great mysteries of physics and 
astronomy is the nature of the missing matter in the universe. Several 
academic groups are pushing the limits of radiation detectors in hopes 
of detecting this missing matter through hypothetical and extremely 
rare ionizing events. Dating geological samples with the feeble signals 
of parent and daughter radioactive isotopes is also an area where 
technology of interest to DNDO is being pushed to its limits.
    DNDO should also support research on improving the detectors we 
already have. For example, some very promising new materials, both 
scintillators and solid state detectors, are currently impractical 
because no one knows how to grow the necessary high-quality crystals 
affordably and reliably. But this is not what I mean by basic research 
for the long term. It is hard to keep the most imaginative and 
motivated people working exclusively on improvements of existing 
detector technology, since the work does not lead to much peer 
recognition, publications in prestigious journals or to the excitement 
of discovery of previously undetectable types of matter.
    If history is any guide, the sort of breakthroughs that could make 
DNDO much more effective in the long term are most likely to come from 
some unexpected finding in basic research. But since the timing of such 
breakthroughs is completely unpredictable, the best strategy is to 
focus on what can be done in the near future with existing or 
incrementally improved detectors, while keeping some modest fraction of 
the budget set aside for basic science that is loosely related to 
DNDO's goals.
    Observation 9: An institutionalized red team should be part of 
DNDO. A planned nuclear attack on the US would probably be staffed with 
the most capable and technically competent terrorists who could be 
recruited by the parent organization. They will not be former 
proprietors of falafel stands, but they will include people trained in 
nuclear physics. Such experts would work to maximize the likelihood 
that a nuclear weapon can be successfully smuggled into the US. The US 
needs a red team of highly competent people that is assigned the same 
job--to defeat our national radiation detection system. Of course the 
findings of the red team should be classified, but the team should be 
encouraged to think expansively and with no constraints. Not only 
should they consider attempts to smuggle HEU through the instrumented 
San Isidro crossing near San Diego, but they should consider someone 
getting the small amounts of material needed across the long US land 
borders with Mexico or Canada, most of which is very loosely monitored. 
We have an extensive and beautiful coastline, and small boats regularly 
set out and return from uninstrumented harbors for deep sea fishing 
trips. DNDO needs avoid building a Maginot network of radiation sensors 
that invites the classic response to fixed defenses--to go around them.
    Observation 10: DNDO needs a technically competent, independent 
advisory committee. DNDO should be required to seek advice periodically 
from independent advisory groups on both the scope and size of their 
efforts. When I served as the Director of Energy research in the 
Department of Energy from 1990 to 1993, I and my staff benefited from a 
number of very knowledgeable advisory groups. We did not always like 
their advice, but we often got very valuable and timely knowledge about 
science and technology developments we had missed because of the time 
pressures on those who work in the federal government. Such a group 
could provide the agency and the Congress with an independent 
assessment of the how well the DNDO programs are doing and of the 
resources needed to sustain an effective national effort.
    Observation 11: DNDO needs appropriate and stable funding. Finally, 
the effectiveness of the DNDO effort will depend to a large extent on 
the adequacy, both in terms of magnitude and constancy, of the funding 
provided to undertake the work deemed to be important to homeland 
security. Regrettably, the threat of nuclear terrorism seems destined 
to remain with us for many years--technological capabilities to inflict 
massive harm on U.S. populations are becoming increasingly widespread 
and potentially accessible to terrorists worldwide. It will be 
necessary for the United States to mount an aggressive, long-term 
counter-terrorism R&D effort to stay at least one step ahead of 
terrorist capabilities.
    This concludes my testimony to the committee. I would be happy to 
clarify my comments or answer committee members' questions. Again, 
thank you for the opportunity to testify.

    Mr. Linder. Dr. Atlas.

     STATEMENT OF RONALD ATLAS, Ph.D., AMERICAN SOCIETY OF 
                          MICROBIOLOGY

    Mr. Atlas. Mr. Chairman and members of the subcommittee, I 
am pleased to present testimony on behalf of the American 
Society For Microbiology concerning the biodefense research and 
development activities of the Department of Homeland Security.
    One of the Department of Homeland Security biodefense 
responsibilities, articulated in Homeland Security Presidential 
Directive 10, Biodefense for the 21st Century, is to play a 
lead role in environmental detection which has meant the 
implementation of the BioWatch system. Besides developing the 
science means for this system, DHS's S&T Directorate actually 
funds the operational costs, and currently that is about a 
third of their biological countermeasures budget.
    It is a substantial cost to the program, which raises the 
issue for us of ensuring that the operational costs, as those 
rise, do not interfere with the necessary R&D efforts of the 
directorate for future biological threats. We think that 
BioWatch and the environmental detectors that it employs need 
to be evaluated on a regular basis if the public health 
community that is to respond to any signals is to trust those 
systems and know how to respond.
    The Department of Homeland Security S&T Directorate also 
operates the Plum Island facility where infectious agents of 
agricultural importance are studied. Indeed, as ``Making the 
Nation Safer'' pointed out, agroterrorism is a significant 
threat to the Nation. Because Plum Island needs upgrading, 
there is consideration being given to moving that site to the 
mainland where it could, in fact, foster interactions among 
leading scientists from various academic excellence centers. 
That, we think, can be done safely, but the Congress will need 
to recognize that the most critical pathogens, such as the 
virus for foot-and-mouth disease currently under U.S. statute 
can only be studied offshore. So we are going to need 
congressional action if we, in fact, relocate the site to the 
mainland.
    I would point out that the Department of Homeland Security 
Centers for Excellence are creating a university-based resource 
for our biodefense efforts, and it is our feeling that these 
need to be allowed sufficient time to develop and nurture. In 
this regard, we are concerned about the proposed provision in 
the Senate's version of the fiscal year 2007 Homeland Security 
appropriation bill that would preclude universities from 
recompeting for funding as Centers for Excellence. In contrast, 
it is our belief that Congress should be seeking sustained 
excellence, and therefore, we should be assessing these centers 
carrying out the necessary peer review, but then allowing them 
to move forward.
    Many of the provisions of HSPD-10 involve coordination by 
the Department across multiple agencies, and this is absolutely 
critical, as we heard earlier, in efforts like BioShield and 
other biodefense efforts carried out by NIH and other agencies 
in guiding and providing the necessary strategic guidance for 
those programs.
    Much of our concern today centers around the ability of the 
DHS and, specifically, its S&T Directorate to obtain critical 
science advice. This has also been expressed by the National 
Academy on recent reports. We do know, at DHS's request, the 
Academy established a Committee on Biodefense Analysis and 
Countermeasures to advise on national biodefense countermeasure 
systems of DHS. Hopefully, that will function very well. It is 
absolutely essential if we are to have international partners 
not suspecting that the U.S. biodefense program is, in fact, a 
centrifuge for elicit activities.
    I guess my time is almost up. As Dr. Happer indicated, he 
and I did serve on Homeland Security's Technology Advisory 
Committee, which had been mandated by the Congress. When the 
date for the charter of that committee ran out, its activities 
were suspended, and I would urge this committee and the 
Congress, in fact, to reauthorize that committee. It was a 
committee, I think, that--Dr. Happer and I would tell you, it 
included the full span of individuals from scientists like 
ourselves through physicians in public health through the chief 
of police to the firefighters, so that we were able to provide 
the under secretary the true end-to-end assessment of the 
Department's activities that I think are truly critical.
    In final conclusion, I think I would urge the directorate 
to reach out to the scientific community to help guide its 
efforts; and while that is difficult when, in fact, secrecy 
needs to be maintained, I still think, and the ASM thinks, that 
the peer review system can work and help to ensure that the R&D 
efforts of the S&T Directorate are of the highest quality and 
that we are fully engaged with the Department in trying to 
protect the Nation against acts of bioterrorism.
    I and the American Society for Microbiology stand ready to 
help the Department in any way we can in those efforts. Thank 
you.
    Mr. Linder. Thank you, Dr. Atlas.
    [The statement of Mr. Atlas follows:]

              Prepared Statement of Ronald M. Atlas, Ph.D.

    Mr. Chairman, members of the Subcommittee, my name is Ronald Atlas 
and I am pleased to present testimony on behalf of the American Society 
for Microbiology (ASM) concerning research and development activities 
of the Department of Homeland Security (DHS). I am Graduate Dean at the 
University of Louisville, where I also co-chair the Center for Health 
Hazards Preparedness. I also co-chair the Committee on Biodefense of 
the ASM Public and Scientific Affairs Board. The ASM is the largest 
single life science society with more than 42,000 members, and its 
principal goal is the study and advancement of scientific knowledge of 
microbiology for the benefit of human welfare. ASM members are involved 
in research, clinical, and public health efforts, focused on developing 
new preventions, therapies, and cures for infectious diseases.
    The ASM supports and encourages the efforts by the DHS Science and 
Technology (S&T) Directorate to provide effective programs that protect 
our nation against bioterrorist threats. Science and technology play a 
critical role in homeland security whether disasters are caused by 
terrorist or natural events. DHS has made significant strides to 
improve cutting-edge technology and systems that enhance emergency 
response capabilities. We believe, however, that the nation's 
scientific community can and should be better engaged by DHS in this 
effort to ensure that the best approaches are developed and employed to 
protect against the potentially catastrophic effects of bioterrorism. 
In this regard, the ASM strongly supports the recommendations of the 
National Academy of Sciences (NAS) to increase the involvement and 
guidance of the broader scientific community with the DHS. The need for 
greater scientific input is particularly important because of DHS's 
role in making risk assessments about biothreats that identify 
countermeasure needs not only for the R&D programs of DHS S&T but also 
for the public health programs at other agencies, including the 
Department of Health and Human Services (HHS).
    It is important that the DHS S&T Directorate build public 
confidence in its activities, that they be effectively coordinated with 
other federal agencies with a biodefense focus, and that they be based 
on sound science policy. In our view, it is especially important for 
the DHS S&T Directorate to have clear and robust peer review processes 
to ensure the merit and high quality of its biodefense-related research 
programs. We urge Congress to reauthorize the charter for the Homeland 
Security Science and Technology Advisory Committee (HSSTAC) and also 
for the DHS to establish appropriate external advisory panels. Our 
testimony will also focus on the need to improve threat assessment and 
other DHS assigned activities through greater engagement with the 
scientific community, including greater involvement of peer review; the 
need for funding for the DHS university based Centers of Excellence, 
fellowships and training programs to encourage students to pursue areas 
of study related to homeland security; the need for more R&D on 
environmental detectors; the continuation of efforts to improve the 
BioWatch system of environmental surveillance; and the need for a 
centralized animal health organization.

    DHS Should Develop a Strategic Plan and Seek Scientific Input to 
Set Priorities for Funding
    The terrorist events of September 11, 2001, and the subsequent 
anthrax attacks led to a substantial restructuring of government 
agencies to defend against terrorist attacks. Part of that change was 
aimed at bringing forth the best efforts of the scientific, medical, 
public health, and engineering communities to meet these national 
needs. In June 2002, the Administration proposed to establish the 
Department of Homeland Security (DHS), and the Congress quickly 
mandated the DHS through the Homeland Security Act of 2002. This Act 
provides for an Undersecretary for Science and Technology to oversee 
DHS research activities aimed at developing countermeasures for acts of 
terrorism, including bioterrorism.
    To refine the specific responsibilities of the DHS in defending 
against bioterrorism, the Administration issued Homeland Security 
Presidential Directive 10 (HSPD-10), Biodefense for the 21st Century. 
According to that Directive, ``The Department of Homeland Security, in 
coordination with other appropriate federal departments and agencies, 
is developing comprehensive plans that provide for seamless, 
coordinated federal, state, local, and international responses to a 
biological attack.'' The ASM believes that HSPD-10 establishes an 
appropriate division of responsibilities in the area of biodefense and 
that DHS has an appropriate lead role in formulating coordinated plans.
    The ASM believes that development of those plans requires critical 
inputs from the scientific community. The ASM also agrees with the 
House and Senate Homeland Security Appropriations Committee directives 
calling for the DHS to develop a strategic plan that delineates how it 
will coordinate with other federal agencies involved in biodefense. 
Importantly, the development of that plan requires critical input from 
the scientific community. The strategic plan also should be published 
in the Federal Register for review and comment.

    The DHS Needs To Interact More Fully with the Scientific Community
    Soon after the anthrax crimes in 2001, the National Academies of 
Science (NAS) undertook a comprehensive study which provided advice on 
protecting the nation against bioterrorism. The report, ``Making the 
Nation Safer: The Role of Science and Technology in Countering 
Terrorism,'' includes chapters, that I and other members of the ASM, 
helped to write. It recommends a series of actions, including the 
development of new tools for the surveillance, detection, and diagnosis 
of bioterrorist threat agents; greatly expanded research programs aimed 
at increasing our knowledge of pathogenesis of and immune responses to 
biological agents; and research critical to deterrence, response, and 
recovery, particularly in areas involving decontamination and 
bioterrorism forensics.
    Many recommendations in that report by the NAS were incorporated 
into the DHS R&D agenda. Moreover, the Congress assigned critical 
segments of those public health and research programs to the HHS. Thus, 
DHS plays a strategic role in defining the threat and identifying needs 
for vaccines, therapeutics, diagnostics and detection and warning 
systems while the HHS maintains the major role in researching and 
stockpiling vaccines and therapeutic agents to protect the public 
against disease agents that could produce mass casualties through a 
bioterrorist attack.
    The ASM strongly supports the HHS continuing to play this critical 
biodefense R&D function. Specifically, the ASM supports the lead role 
of the National Institutes of Health (NIH) and the National Institute 
of Allergy and Infectious Diseases (NIAID) in basic research and 
training and research resources, including an emphasis on translating 
basic research into the development of critical vaccines, diagnostics 
and therapeutics to combat infectious diseases and agents of 
bioterrorism.
    Congress and the Administration appear to agree that major funding 
for biomedical research for biodefense should remain in the HHS. The 
ASM supports this approach because robust linkages between NIAID and 
the wider scientific community ensure that the best researchers are 
engaged in biodefense research. Moreover, the strong peer review system 
of the NIH further ensures the high quality of this research, and is 
suited to integrating basic biomedical research investigating emerging 
and re-emerging infectious diseases with other more applied research 
that will be needed to protect human health and national security 
against the threat of bioterrorism. By establishing Regional Centers of 
Excellence, NIAID is fostering efforts in both the academic and private 
sectors to develop defenses against a variety of infectious diseases--
from anthrax to avian influenza. This capacity to derive dual benefits 
from research investments is proving critical for advancing human 
health and for meeting national security needs.
    While supporting the paramount role of the NIH/NIAID in overseeing 
research to protect against infectious diseases and bioterrorism, the 
ASM also supports the strategic role of DHS in biodefense. That role 
includes prioritizing investments in biodefense-related research, 
development, planning, and preparedness. Biannual risk assessments 
should guide the setting of those priorities. However, the ASM is 
concerned that the DHS and the intelligence community are not 
adequately involving the broader science community in making threat 
assessments. This concern also was expressed in the NAS report, 
``Globalization, Biosecurity, and the Future of the Life Sciences,'' 
which calls for strengthening and enhancing the scientific and 
technical expertise within and across the security communities.
    The ASM recommends stronger interactions among the DHS, 
intelligence, and scientific communities to develop a broad consensus 
on biothreats and to provide appropriate strategic guidance to the DHS 
S&T Directorate and the HHS Office of Public Health Emergency 
Preparedness. Such a consensus will also help to guide the Project 
BioShield countermeasure procurement process and the research agenda. 
The ASM and the broader scientific community stand ready to provide the 
guidance needed for developing medical countermeasures.

    The DHS Centers of Excellence and Training Programs Need Sustained 
Support
    The DHS has established six Centers of Excellence to create a 
university based capacity to engage the expertise of academia in 
addressing the science and education needs of the department. Ongoing 
merit review and evaluation of the work of these centers assures high 
quality performance and focus on the evolving needs of the DHS. Even in 
their formative phase, the value of the centers is being recognized as 
well as the need for eligibility for sustained support that will lead 
to dual benefits by meeting both national security as well as public 
health needs. The centers should be allowed sufficient time to 
demonstrate their contributions to the DHS S&T mission and at the local 
and state levels to enhance planning, prevention and emergency 
response. In this regard, we are concerned about the proposed provision 
in the Senate's version of the FY 2007 Homeland Security Appropriation 
bill that would preclude universities from re-competing for funding as 
a DHS Center of Excellence. In contrast, we believe that Congress 
should be seeking sustained excellence. We believe that the activities 
of these centers, as well as all other R&D activities of DHS S&T, can 
and should be assessed by continuing ongoing rigorous peer review to 
assure the public of their value.
    The ASM considers fellowship and training programs an essential 
activity for DHS S&T to encourage students to pursue areas of study 
related to homeland security. While it is still too early to judge the 
outcomes of the fellowship support programs of DHS, it appears that 
they are attracting high quality students who can participate in the 
future protection and security of the nation. Like the Centers of 
Excellence, the ASM believes that these training programs need time to 
develop and should be supported and regularly assessed.
    The ASM also believes it is important to build career tracks for 
those considering a career in DHS. As part of its training initiative, 
DHS should consider building a program modeled after the two-year 
epidemic intelligence service (EIS) program at CDC, begun soon after 
the inception of that agency. This program has led to a steady flow of 
bright young talented professionals in diverse fields, which have 
populated many of the leadership positions in CDC and in parallel state 
agencies in the following years. These EIS graduates have served the 
government in the field of public health with remarkable competency 
through the decades, and a similar program should be valuable for DHS.

    Maintain NAS Committee that Advises the DHS and Strengthens Peer 
Review of DHS S&T programs
    The ASM supports the role of the NAS Committee on Biodefense 
Analysis & Countermeasures, which was formed following a request from 
the DHS, in advising the department on technical issues and studies 
related to the DHS National Biodefense Analysis and Countermeasures 
Center (NBACC). The NBACC is managed by the DHS S&T Directorate and is 
part of the national interagency Homeland Security Biodefense Campus at 
Fort Detrick.
    NBACC programs provide knowledge of infectious properties of 
biological agents, effectiveness of countermeasures, decontamination 
procedures, and forensics analyses to support policy makers and 
responders in developing policies, programs, and technologies. The 
technical advice from this committee should be viewed as critical for 
the NBACC to achieve its mandate in conducting biodefense R&D.
    The ASM believes that the advice from the Committee on Biodefense 
Analysis & Countermeasures can help to allay concerns that have been 
raised about public oversight of the NBACC activities. In particular, 
this committee should help to address compliance issues regarding the 
Biological and Toxin Weapons Convention (BWC), which permits research 
only for defense against biological weapons. Oversight of such 
activities in federal facilities is very important for maintaining 
transparency and international confidence in the legitimacy of US 
biodefense programs.
    Going beyond the role of the Committee on Biodefense Analysis & 
Countermeasures, the ASM recommends that the DHS and the NBACC have a 
formal peer review system--one that will have to balance secrecy 
requirements with the need for transparency to ensure the quality of 
research and development programs as well as and the legitimacy of the 
NBACC threat characterization efforts. Properly designed studies, 
formal advisory boards, and a robust system of peer review will 
reassure the Congress and the public of the value of the DHS S&T and 
NBACC investments. Coordinating the appropriate biodefense-related 
NBACC and HHS efforts is also important.

    Congress Should Reauthorize the DHS Homeland Security Science & 
Technology Advisory Committee
    The Homeland Security Act of 2002 directed the Secretary of the 
Department of Homeland Security to establish the Homeland Security 
Science and Technology Advisory Committee (HSSTAC). However, the DHS 
disbanded the HSSTAC as soon as the Congressional mandate for this 
committee expired. The ASM urges the Congress to reauthorize the HSSTAC 
charter. This committee, on which I served, brought together 
scientists, physicians, members of the business community, and first 
responders to provide the Undersecretary for S&T with broad advice and 
technical support.

    The DHS and FBI Should Work Together on Microbial Forensics
    The Administration designated NBACC the lead federal agency for 
forensic analysis of materials recovered following a biological attack. 
This is a new field of microbiology that requires coordination among 
scientists from several disciplines along with the law enforcement 
community. Separately, the FBI established a Scientific Working Group 
on Microbial Forensics to provide advice on the development of forensic 
methods and protocols, particularly those that can meet standards 
suitable within the US legal system. Although the DHS participates in 
those advisory meetings, it has not established a comparable advisory 
group. In the interest of addressing these important national 
biodefense needs, the ASM recommends that the DHS work more closely 
with this FBI Scientific Working Group and also consider establishing 
its own external microbial forensics advisory group.

    BioWatch, Environmental Detection, and Decontamination Need Ongoing 
Assessments
    Environmental detection is a critical activity for the DHS S&T. 
Early detection of infectious diseases--whether from natural outbreaks 
or bioterrorist attacks--is critical for curtailing morbidity and 
mortality. In terms of medical diagnoses, we rely on the medical and 
public health communities, giving a key role to the federal Centers for 
Disease Control and Prevention (CDC) for recognizing suspicious disease 
outbreaks.
    For bioterrorism, however, early environmental detection can avert 
the catastrophic spread of disease or facilitate early treatments. The 
DHS S&T implemented the BioWatch system in several major cities to 
detect biothreat agents that can spread as aerosols. The DHS S&T 
Directorate funds the operational costs of the BioWatch system, which 
currently represent about a third of the S&T biological countermeasures 
budget. Because of the substantial cost of Biowatch within the S&T 
biological countermeasures budget, we must ensure that it does not 
divert funding from core research and development activities. Thus, we 
recommend that Congress and the Administration ensure the adequacy of 
the funding of S&T R&D activities to protect against future biological 
threats.
    We further recommend that the DHS S&T Directorate focus on the 
research and development efforts needed to provide the nation with 
optimal environmental detectors. In particular, more research and 
development is needed to build a better system--one that could provide 
instantaneous accurate detection. Progress upgrading the current 
detection system and making it more cost-effective will help toward 
gaining the full confidence of the public health community. To meet the 
expectations of BioWatch the ASM recommends that this program, and the 
environmental detection systems it employs, be evaluated on a regular 
basis to determine their general effectiveness and reliability. As with 
other DHS S&T programs, the ASM believes that BioWatch should have a 
peer review system to ensure that it focuses on the most significant 
biothreat agents.
    Although the Environmental Protection Agency is assigned the lead 
role, the DHS S&T should continue to play a critical role developing 
decontamination systems. Several DHS systems for environmental 
detection and decontamination are based on programs under way at 
several of the Department of Energy National Laboratories. Although 
seemingly innovative, these programs and the prototype detection 
systems that they are producing should be subject to rigorous peer 
review to ensure their quality. Lacking such review, the broader 
community may not develop confidence in these systems when a warning 
goes off or a facility is said to be decontaminated following a 
bioterrorism attack.
    Finally, the Administration assigned major public communication 
responsibilities to the Department of Homeland Security. With other 
appropriate federal departments and agencies, the DHS is charged with 
developing comprehensive communication strategies in the event of a 
bioterrorism attack. However, the NAS study, ``How Clean is Safe,'' 
concluded that public acceptance of status reports is inevitably based 
on whether they trust what government officials tell them. Thus, 
communications from DHS need to be credible if they are to be 
effective. The best methods for decontaminating facilities and the 
finest techniques for detecting bioterrorist outbreaks are of little 
use if the public does not believe in them.

    Centralized Organization for Animal Health Issues Needed
    Agriculture can be the target of bioterrorist attacks. The NAS 
report, ``Making the Nation Safer,'' recommended establishing a 
centralized animal health surveillance organization equivalent to the 
CDC. It also recognized the need for increased R&D efforts to protect 
our food resources. The DHS S&T Directorate established two academic 
Centers of Excellence, one at Texas A&M University and the other at the 
University of Minnesota, for addressing agro-security issues. The DHS 
S&T Directorate also operates the Plum Island facility where infectious 
agents of agricultural importance are studied.
    We need a first class facility where the most dangerous animal 
pathogens can be studied. Because the Plum Island facility needs 
significant upgrading, DHS is considering a number of alternate, more 
cost-effective, and more readily accessible sites for a facility. 
Constructing and operating an animal health facility on the mainland 
can be done safely; however, it may require the Congress to enact 
legislation permitting several animal pathogens, including those 
responsible for foot and mouth disease and rinderpest, to be studied on 
the US mainland. Such research is critical for the development of 
vaccines, therapeutic drugs, and detection methods to protect against 
diseases that could severely damage US agriculture and our economy. To 
foster the highest quality research it will be advantageous to have the 
facility interact with the NIH and DHS academic Centers of Excellence 
on key areas of research.

Conclusions
    In conclusion, the ASM supports the critical roles given to DHS by 
HSPD-10 which make the DHS S&T programs of central importance for 
making the nation safer against threats of bioterrorism directed 
against humans and agriculture. We believe that HSPD-10 appropriately 
distributes shared responsibilities across the Federal government 
assigning to DHS a critical coordination role that is essential for 
defending the nation against a bioterrorist attack. The ASM strongly 
supports recommendations from the NAS to increase the involvement of 
the broader scientific community in assessing specific bioterrorist 
threats and, more generally, in guiding the efforts of both the DHS and 
the HHS in developing detection systems, medical countermeasures, 
decontamination methodologies, and other biodefense-related measures. 
Improved intelligence and threat characterization are also critical to 
these efforts.
    The DHS S&T Directorate should reach out to the scientific 
community to help guide its efforts. Without such input, it will be 
difficult to build an effective public health response, one that the 
medical community and the public will trust. We think that the DHS 
should have robust peer review systems to guide its S&T efforts and to 
ensure the quality of its R&D efforts. We urge the Congress to 
reauthorize the charter for the HSSTAC and for the DHS to establish 
additional external advisory panels to guide its R&D efforts. We 
recognize that the need for secrecy may conflict with the need for 
broadly based peer evaluations, but believe that these difficulties can 
be overcome. We strongly believe that DHS should provide enhanced 
support for agrosecurity since they are charged with this 
responsibility and the area is critically important to biodefense. The 
ASM stands ready to assist the DHS S&T directorate as well as all other 
agencies involved in defending our nation against bioterrorism.

    Mr. Linder. Dr. Atlas, do you agree with Dr. Happer that 
the supreme threat to this country is a nuclear explosion?
    Mr. Atlas. I think that there is a difference between 
biologists and my colleagues in nuclear physics in that the 
biologists think that some agents can equal--maybe not exceed, 
but equal a nuclear threat; and they are easier to obtain and 
develop. So we have seen biological on a par at points with 
nuclear.
    But I think, as Dr. Happer said--the comments I heard 
suggested a dirty bomb is not up there and, likewise, the 
chemical threats are not at the same level, so that when we 
were advising the previous under secretary on the committee, I 
think biological and nuclear kept rising to the top.
    And, Will, you may or may not agree with that. But those 
two stood out above, in my mind, the other sorts of threats 
that we face. Which is not so say that we didn't suggest to the 
under secretary that the more common, not mass-casualty sorts 
of weapons, like conventional bombs needed real concern by the 
Department. We were on board with that.
    Mr. Linder. I happen to agree with you that nuclear and 
biological are at the top of the list. It makes me curious as 
to why we spend one out of eight of our dollars for homeland 
security on airline protection and less than 2Sec. rcent on 
intelligence, which is the only thing that is going to bring us 
a breakthrough on the spread of nuclear and biological 
intelligence.
    It does seem to me that our priorities are not very 
rational.
    Dr. Happer, if you would agree that one of the threats to 
us is financial, how can we cripple this country financially? A 
dirty bomb in Lower Manhattan may not kill a lot of people 
immediately and it may not cause a radioactive disease, but 
wouldn't just the cleanup effort be hugely costly and take 
years to do?
    Mr. Happer. I would be surprised if it would take years to 
do it.
    We recently renovated a building at Princeton that was 
contaminated with radioactivity from the 1930s, and it cost us 
several hundred thousand dollars, you know, and we had to pull 
out some stuff. You wouldn't have wanted to be in the parts 
that were contaminated before we cleaned it up, but there are 
companies that do this and have experience doing this. And I 
personally think that we would handle it.
    Mr. Linder. You go out of your way to tell us that these 
things are not going to be breakthroughs, that much of the 
science is mature in radioactive detection?
    Mr. Happer. That is because I am alarmed about calls for a 
Manhattan Project. There is no way you can spend that amount of 
money wisely on radiation detectors.
    Mr. Linder. What could be a breakthrough? What might come 
along that is totally new?
    Mr. Happer. Well, one thing I mentioned in my testimony is 
that if you look at breakthroughs in the past, for example, 
nuclear weapons themselves, that was an accident, you know; in 
fact, the hero was a woman. You know, Lise Meitner, who was 
looking at some work for which Fermi got the Nobel Prize, 
thinking he had made plutonium; and in fact, he realized, this 
isn't plutonium at all, this is barium. And nobody thought of 
that.
    You know, but she was a good enough chemist to recognize 
it, and so it was she really who is responsible for discovering 
fission.
    So these things happen in a very unpredictable way. But to 
give an example that--you know, the basic science community is 
now trying to detect neutrino, if you think it is hard to 
detect highly enriched uranium, plutonium, it is much harder to 
detect neutrino from the sun and outer space. So I guess, if I 
were running the program, I would put a little bit of money 
into very loosely connected science that was pushing the limits 
on something that was even harder than nuclear material.
    So I would support some work on neutrino detection or maybe 
looking for dark matter--you know, a big mystery, what is it? 
And again, we have got very bright, motivated, driven people, 
you know, thinking, how can I detect this? How can I detect 
this? And I think that is where a breakthrough might come from.
    Mr. Linder. Dr. Atlas, when are we going to reach a point 
when the BioWatch program is actually use could help avert at 
least the distribution, as it occurred 5 years ago in the 
anthrax attacks.
    Mr. Linder. Doesn't this entire program require a human 
being to go out and pick it up and bring it in and test it? At 
what point can we get some reading directly off satellites that 
there is something going on at this point?
    Mr. Atlas. And I think the answer to that is, they would 
not need major new breakthroughs in technology. We, in fact, 
have the capability to do autonomous detection of micro-
organisms where the samples can be relayed to a central 
location.
    There has been a first-generation BioWatch. There have been 
other developments under way at DHS; and I think the issue that 
I raised when I questioned how much effort goes into operation 
versus how much can be offered in the future generations, in 
fact, rests there. In my view, some new systems can be made 
available, are being made available, a plan to replace that 
first generation. We need to move forward in that way.
    Mr. Linder. Thank you. My time has expired.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Gentlemen, thank you for your testimony here today.
    Dr. Happer, I would like to follow up on a comment you made 
during your testimony, and the chairman had raised during his 
questioning period. You said that we shouldn't expect any 
breakthroughs in the area of nuclear detection technology, and 
I wonder if you could again just expand on that a little bit, 
only because we know that technology squares every 18 months.
    And, yes, I know that doesn't apply to the laws of physics, 
but it does apply to technology. So why couldn't we, or 
shouldn't we, expect breakthroughs in nuclear detection?
    Mr. Happer. Well, I maybe have misrepresented myself 
slightly in that I did mention that there is always a 
possibility of an accidental breakthrough, and we discussed 
that a few minutes ago. But let's talk about the two detectors 
that you brought up, which are sodium iodide and high-frequency 
germanium. Both of those have been around for many decades.
    In fact, when I was a student, I counted gamma rays with 
sodium iodide; and when I look at the detectors today, they are 
not very different from the ones I used in the 1960s.
    And germanium is a little bit newer, and as was mentioned 
by Mr. Oxford, one of the problems with germanium is just the 
practicality of always pouring liquid nitrogen in it; so there 
is a big infrastructure to keep it operating that you don't 
need for sodium iodide.
    So I think, although you might not have a breakthrough, you 
could have some other material that would not require so much 
cooling. You would then maybe have not quite as good 
resolution, but I wouldn't call that a breakthrough. I would 
call that very, very useful for a system.
    What I mean by ``breakthrough'' is something like the 
discovery of fission, right, or the discovery of, you know, 
semiconductors to replace electronic tubes. That is what I had 
in mind as a ``breakthrough.''
    Mr. Langevin. Thank you.
    Gentlemen, this panel focuses obviously on threats usually 
more characterized as WMD, or to be more specific, CBR, 
chemical-biological-radiological, or nuclear or explosive; and 
we have a large number of threats that have to be addressed. 
Now, the DNDO is focused on nuclear radiological threats while 
the rest of the S&T Directorate is tasked with chemical, 
biological and explosive.
    The nuclear weapons as, we have mentioned many times here 
today and in previous hearings, are judged to be the most 
difficult of these threats to acquire, but also the most 
catastrophic. So given the relative dangers across the CBRNE 
spectrum, do you think that the funding priorities of the 
President's budget of $536 million for DNDO, $83 million for 
chemical countermeasures, $86.5 million for explosive 
countermeasures and $337 million for biological countermeasures 
is the correct balance?
    Mr. Atlas. I think that is a difficult question in that 
whatever the next attack is, the Congress and the public are 
going to look and ask, why weren't we adequately protected 
against that? So whatever we are investing in does seem 
appropriate. But also I have no doubt we will second-guess it 
if we are attacked with one of the other weapons; and that, I 
think, is a difficulty, that--none of us have a crystal ball.
    We would like to know where and what the next real threat 
is going to be. Given that, we place the emphasis on those 
agents that we think will cause or have the potential to cause 
the greatest harm; and in that regard, we seem to be 
appropriately making decisions that nuclear-biological get more 
than chemical or explosives. But I venture to say, if we 
started seeing bombs going off on mass transportation systems, 
the public would be hollering to indicate the question, Why 
weren't we paying more attention to those? That, I think, is 
the reality.
    Mr. Langevin. Let me take it a step further. Even the right 
balance maybe is not the right way to approach it.
    Are you surprised by how much or how little we are spending 
on any one of the things that I just read? Does it shock you 
that we might not be spending more in a particular area?
    Mr. Happer. Let me try and step in for just a minute here. 
I do think that we could use some more money spent on 
conventional chemical explosives not only for our country 
where, God forbid, we might have something like Madrid or 
London, but, you know, the War in Iraq where we are losing most 
of our--you know, troops to improvised explosive devices. And 
yet if you look at the money that is being spent on 
conventional explosives, it is very modest.
    Now, again, that is a very mature technology. It is a 
little bit like nuclear detectors. It is hard to make a 
breakthrough, but we should still probably be trying harder 
than we are.
    Mr. Atlas. Let me in the biological arena point out, as 
this committee has noted, we have split responsibilities 
between DHS and other agencies like HHS; and there is 
significant biodefense funding outside of DHS. The one area 
within the DHS biological program that I think one might point 
to with concern is the agroterrorism area; there, we don't have 
the equivalent sort of funding outside of DHS on this. 
Certainly the Department of Agriculture is involved to an 
extent, but nothing like what we have in the DHHS programs for 
human biodefense.
    Mr. Langevin. Chairman, thank you.
    Mr. Linder. Mr. Dicks.
    Mr. Dicks. You suggested a Red Team. I have always been in 
favor of red teams in situations like this, somebody to 
challenge the conventional wisdom. And one of the things that 
was mentioned in the 9/11 Commission report was a need for 
imagination.
    I think a Red Team could be a very big benefit. Tell us why 
you why you suggested that.
    Mr. Happer. Well, I am worried that in the effort to try 
and put something out in the field, we will put something out 
all right, we will spend a lot of money, but it could well be 
that it is very easily defeated.
    And so that is the classic problem; it was the problem the 
French had when they built the Maginot Line. They didn't have a 
Red Team, in fact. Or they did have a Red Team, but it wasn't 
very official; and it got the right answer, but it was ignored.
    So I just--I would like to feel that we are not going to 
build a marginal detection system that has the same fate as 
every other marginal detection system. You just go around it 
somehow. And the best way I think to avoid that is to try to 
figure out, how would I defeat that myself. I know everything 
about it. My job is to defeat it. I am not going to put it in 
the press, but I am going to give Mr. Oxford hell about his 
current design and he is going to have to respond to it, and it 
is going to be entirely internal and private.
    Mr. Dicks. You also suggested that DNDO needs a technically 
competent independent advisory committee. Do they not have one 
now?
    Mr. Happer. I am a little out of date. I spoke to Mr. 
Oxford and--just as the meeting was breaking up for your vote, 
and he invited me over to see what is happening now. And I will 
try to do that.
    But--to the best of my knowledge, they don't have an 
official advisory committee, but that may be just because I 
don't know about it.
    Mr. Dicks. Now on the BioWatch, the whole thing, Dr. Atlas, 
we have--you know, DHS has to do these material threat 
assessments which have been rather slow in coming. Maybe they 
picked up a little bit, but for a while they were very slow. 
But HHS is seen just to be totally unable to respond. What is 
your take on all this? I mean what needs to happen here to get, 
you know--or should something happen?
    I mean, some people say we ought to wait. I can't believe 
that we can't have some better preparation than just sitting on 
our hands.
    Mr. Atlas. And I am not sure about the validity of whether 
HHS can or has not responded. Certainly from the scientific 
community's view, HHS, through the National Institute of 
Allergy and Infectious Disease, has gotten way out in front in 
terms of them being able to foster the development of new 
vaccines and drugs that will be effective in the future.
    Now, admittedly, a lot of that is basic research, but they 
are all rushing towards translation into production. And they 
do depend on DHS for strategic direction, and I am not sure 
that early on that strategic direction was forthcoming. ASM, 
myself included, was involved in advising the Congress and 
testifying on that decision to split responsibilities between 
DHS, strategic function, and giving HHS tactical function.
    If you are referring to BioShield, which is the newSec. 
    Mr. Dicks. Right.
    Mr. Atlas. --which is--this newer wrinkle on BioShield is 
this procurement device whereby DHS designates what is of 
concern and then HHS undertakes the activity that leads to 
procurement. I believe that only four agents have so far come 
forward as the designated threats for which HHS procures. So we 
have a bunch of talks and threats about radiological devices, 
and my understanding is, those are entering the stockpile.
    The question is whether or not the BioShield should also 
have an advanced development function, so that when something 
is not ready for procurement, there needs to be development. I 
think that is where we need better direction, perhaps from the 
Congress, to help guide that relationship between DHS and HHS 
so that, in fact, the needs of the Nation are properly being 
met.
    Mr. Dicks. Who would do that? I mean, the advanced research 
would be done by the universities and by--
    Mr. Atlas. They are most likely to be done by biotech 
companies. In truth, many universities are spinning off biotech 
companies and building bioparks to foster that.
    It tends to be more an industrial development scheme, and I 
suspect the Congress is hearing more calls from that sector for 
action, that they are not being well served under the current 
version of Bio--but this has been in its development and, I 
suspect, will continue to be an extraordinarily complex effort 
and act as to where the Congress really wants to have 
investments made.
    Is it to bolster industry? And if so, how do we ensure that 
the right devices are being picked for that development? And I 
think that is across the board.
    Mr. Dicks. Exposure to nuclear weapons, I mean, to 
radiation from a nuclear blast is a major problem area; and you 
know--what do you think we should do then?
    Mr. Happer. Well, you know, most people in Hiroshima and 
Nagasaki were killed by the blast. The number who died of 
radiation was quite small. I would be surprised if it was more 
than a few percent. But the real problem from a nuclear weapon 
is the blast.
    And with respect to exposure, you know--I pointed out in my 
notes that, you know, we have sailors in our ballistic missile 
submarines who bunk right by the missiles; they are loaded with 
plutonium. The amount of radiation from plutonium, which is 
much more radioactive than HEU, is manageable, so even with 
their 6 months of sea duty, you know, every year, they don't 
get very much of a dose.
    So unless you actually have a weapon, the amount of 
radiation is not going to be very great.
    Now, a dirty bomb, there is the additional problem--well, 
you get something that is really radioactive, cesium, cobalt, 
and you try to blow it up and disperse it. But if you actually 
try to do that--and people have done experiments and kept 
running models--it is very hard to disperse it.
    You know, I remember I used to watch people spraying, for 
the boll weevil in North Carolina. You know, the guy gets up in 
the airplane in the morning. He sprays back and forth. It is 
noon, he is still spraying. It is a dispersal problem.
    It is just very hard to disperse things, whereas a blast, 
it moves at the speed of sound everywhere. So within a fraction 
of a second it has wiped out the city.
    Mr. Dicks. That has to be number one--
    Mr. Happer. Yes. Yes.
    Mr. Dicks. --in your judgment.
    Thank you, Mr. Chairman.
    Mr. Linder. Thanks to the both of you. Thank you for your 
patience today. You have been very helpful.
    Dr. Atlas, it is good to see you again. Dr. Happer, I think 
we will be seeing more of you, too. Thank you.
    This hearing is adjourned.
    [Whereupon, at 4:24 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
